<html>
<title> - THE OUTER RING OF BORDER SECURITY: DHS'S INTERNATIONAL SECURITY PROGRAMS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






    THE OUTER RING OF BORDER SECURITY: DHS'S INTERNATIONAL SECURITY 
                                PROGRAMS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                               BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 2, 2015

                               __________

                           Serial No. 114-18

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-682 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                 Candice S. Miller, Michigan, Chairman
Lamar Smith, Texas                   Filemon Vela, Texas
Mike Rogers, Alabama                 Loretta Sanchez, California
Jeff Duncan, South Carolina          Sheila Jackson Lee, Texas
Lou Barletta, Pennsylvania           Brian Higgins, New York
Will Hurd, Texas                     Norma J. Torres, California
Martha McSally, Arizona              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
              Paul L. Anstine, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairman, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Filemon Vela, a Representative in Congress From the 
  State of Texas, and Ranking Member, Subcommittee on Border and 
  Maritime Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     5

                               Witnesses

Mr. Alan D. Bersin, Assistant Secretary and Chief Diplomatic 
  Officer, Office of Policy, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. John Wagner, Deputy Assistant Commissioner, Office of Field 
  Operations, U.S. Customs and Border Protection, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Lev J. Kubiak, Assistant Director, International Operations, 
  Homeland Security Investigations, U.S. Immigration and Customs 
  Enforcement, U.S. Department of Homeland Security:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22
Ms. Rebecca Gambler, Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29

                                Appendix

Question From Honorable Brian Higgins for Alan D. Bersin.........    57

 
    THE OUTER RING OF BORDER SECURITY: DHS'S INTERNATIONAL SECURITY 
                                PROGRAMS

                              ----------                              


                         Tuesday, June 2, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Smith, Rogers, Barletta, 
Hurd, McSally, Vela, and Torres.
    Mrs. Miller. I think we are expecting a few more Members, 
but in the interest of time and there are a number of hearings 
happening this morning, the Committee on Homeland Security, 
Subcommittee on Border and Maritime Security, will come to 
order. The subcommittee is meeting today to examine the 
Department of Homeland Security's international programs.
    We are pleased to be joined by Mr. Alan Bersin, who is a 
frequent guest here, of the Department of Homeland Security's 
Office of Policy; Mr. John Wagner, again another frequent 
guest, from the Office of Field Operations at U.S. Customs and 
Border Protection; Mr. Lev Kubiak of the U.S. Immigration and 
Customs Enforcement--I appreciate him coming again--and, also, 
Ms. Rebecca Gambler is back again of the Government 
Accountability Office.
    We learned on 9/11 and again with the Christmas day bomber 
that we cannot wait to act until terror plots reach our shores. 
Pushing our borders out gives the Nation's security 
professionals the time and space to interdict plots before they 
reach the homeland. For more than 10 years the Department of 
Homeland Security and, in particular, its operational 
components have done just that.
    Today we have several programs in place to stop suspected 
terrorists, foreign fighters, and others with significant 
derogatory information provided by the intelligence community 
from ever coming to America. No system is perfect, of course.
    But the earlier in the travel and the visa process we can 
begin to conduct security checks, have a CBP Officer examine 
and pre-clear an individual or do a security advisory opinion 
to make sure we are examining visas appropriately, the safer 
the homeland will be.
    The vetting these programs do has created an outer ring of 
border security which has become even more important due to the 
significant and growing threat that fighters from the Islamic 
State of Iraq and Syria, ISIS, pose to our Nation.
    These fighters could be one flight away, bringing with them 
the skills, training, ideology, and commitment to killing 
Americans that they learned overseas, and that is why it is so 
important that the DHS officers and attaches abroad conduct 
security operations.
    Today the DHS has a large footprint overseas with more than 
1,800 people stationed in 77 foreign countries across the 
globe. I certainly understand that the posting of DHS personnel 
overseas is a cumbersome process with significant costs. In 
many cases, it costs more than $500,000 per person each year. 
Space is limited at many consulates and embassies overseas.
    So it is incumbent on the Department to use and to 
constantly update its risk-based approach so that the American 
people are getting good security value for the expense. Threats 
that originate overseas have evolved over time, and our 
security posture should evolve with it.
    DHS should constantly re-evaluate the location of their 
officers to ensure that we have our men and women in the right 
countries. Additionally, if we can do some of the screening and 
vetting work here at home, we should.
    When the security of the homeland requires the Department 
to have officers overseas, we need to maximize their use to 
cover multiple countries within their respective issue areas as 
well as ensure their personal safety.
    To that end, we are glad to see that, in many cases, the 
DHS utilizes a regional model where its attaches are covering 
several nearby countries to make sure the Department's 
investigations are being properly supported overseas.
    We are also pleased that where we have the visa security 
program officers overseas we have the PATRIOT program that 
examines the totality of data on ESTA and visa applications. 
However, this program is limited to just those posts where visa 
security units are in place.
    Despite the visa security program's proven security value 
and robust Congressional support, this program has not been 
expanded to all high-risk posts overseas. No issue has kept CBP 
leadership busier over the past few years than pre-clearance 
operations.
    Failure to properly consult with stakeholders and the 
Congress and other process fouls on pre-clearance expansion 
caused a great deal of consternation on Capitol Hill and in 
this committee. I hope that the Department has looked at some 
of the early missteps and will keep Congress fully abreast of 
future plans, especially in light of the recent announcement of 
the intention to expand pre-clearance to 10 additional 
locations.
    We certainly want to be clear that we support pre-clearance 
where it makes sense. Pre-clearance has been used as a security 
screening and trade facilitation tool since the early 1950s, 
and since 9/11 the security value of these operations has only 
been heightened. However, as was made clear by legislation the 
House passed last year, we cannot repeat the mistakes of the 
Abu Dhabi agreement.
    Expansion of pre-clearance has to be done is such a way 
that supports both our security and facilitation objectives and 
does not disadvantage our domestic airlines at the same time. 
The full committee plans on taking up pre-clearance legislation 
once again later this month, actually, and I certainly look 
forward to its quick passage by both the House and the Senate.
    Defeating terrorists' ability to move internationally has 
long been a focus area for this subcommittee. We have and will 
continue to be champions for pushing the border out because our 
National security demands it.
    So we will be looking forward to hearing from Mr. Wagner on 
CBP's plans to expand pre-clearance operations overseas. We are 
also interested in hearing more about the work that the DHS led 
vetted units throughout the world, including Central America, 
to help better capacity of law enforcement, to build the 
capacity of law enforcement, and to help lead to better 
conditions to reduce migration into the United States.
    Our enemies are intent on attacking our country and are 
actively seeking to avoid our countermeasures. We must be one 
step ahead instead of constantly reacting to their latest 
attack. DHS' presence overseas is the crucial part of the outer 
ring of border security and provides many opportunities to 
break up plots early in the travel and visa cycle.
    The purpose, again, of this hearing to make sure that DHS 
and the Government as a whole are taking full advantage of 
every tool in our tool kit to limit terrorist mobility as far 
from our shores as possible and to ensure that limited taxpayer 
funds are used as effectively as possible.
    Again, I thank the witnesses for being here this morning. 
We look forward to all of your testimony.
    [The statement of Chairman Miller follows:]
                Statement of Chairman Candice S. Miller
    We learned on 9/11 and again with the Christmas day bomber that we 
cannot wait to act until terror plots reach our shores. Pushing our 
borders out gives the Nation's security professionals the time and 
space to interdict plots before they reach the homeland.
    For more than 10 years, DHS, and in particular its operational 
components have done just that. Today we have several programs in place 
to stop suspected terrorists, foreign fighters, and others with 
significant derogatory information provided by the intelligence 
community from ever coming to America.
    No system is perfect, of course, but the earlier in the travel and 
visa process we begin to conduct security checks, have a CBP Officer 
examine and pre-clear an individual, or do a security advisory opinion 
to make sure we are examining visas appropriately, the safer the 
homeland will be.
    The vetting these programs do has created an ``outer ring of border 
security,'' which has become even more important due to the significant 
and growing threat that fighters from the Islamic State in Iraq and 
Syria (ISIS) pose to our Nation.
    These fighters could be just one flight away--bringing with them 
the skills, training, ideology, and commitment to killing Americans 
they learned overseas. This is why it is so important that DHS officers 
and attaches abroad conduct security operations.
    Today, DHS has a large footprint overseas with more than 1,800 
people stationed in 77 foreign countries across the globe.
    I understand that the posting of DHS personnel overseas is both a 
cumbersome process with significant cost--in many cases costing more 
than $500,000 per person each year.
    Space is limited at many consulates and embassies overseas, so it 
is incumbent on the Department of Homeland Security to use, and 
constantly update, its risk-based approach so that the American people 
are getting good security value for the expense.
    Threats that originate overseas have evolved over time, and our 
security posture should evolve with it. DHS should constantly 
reevaluate the location of their officers to ensure that we have our 
men and women in the right countries. Additionally, if we can do some 
of the screening and vetting work here at home, we should. When the 
security of the homeland requires the Department to have officers 
overseas, we need to maximize their use to cover multiple countries 
within their respective issue areas, as well ensure their personal 
safety.
    To that end, I am glad to see that, in many cases, DHS utilizes a 
regional model, where its attaches are covering several nearby 
countries to make sure the Department's investigations are being 
properly supported overseas.
    I am also pleased that where we have Visa Security Program officers 
overseas we have the PATRIOT program that examines the totality of data 
on ESTA and visa applications. However, this program is limited to just 
those posts where Visa Security Units are in place. Despite the Visa 
Security Program's proven security value, and robust Congressional 
support, this program has not been expanded to all high-risk posts 
overseas.
    No issue has kept CBP leadership busier over the past few years 
than pre-clearance operations.
    Failure to properly consult with stakeholders and the Congress, and 
other ``process fouls'' on pre-clearance expansion caused a great deal 
of consternation on Capitol Hill and in this committee.
    I hope that the Department has learned from some of the early 
missteps and will keep Congress fully abreast of future plans, 
especially in light of the recent announcement of the intension to 
expand pre-clearance to ten additional locations.
    I want to be clear that I support pre-clearance where it makes 
sense. Pre-clearance has been used as a security screening and trade 
facilitation tool since the early 1950's, and since 9/11, the security 
value of these operations has only been heightened.
    However, as made clear by legislation the House passed last year, 
we cannot repeat the mistakes of the Abu Dhabi agreement. Expansion of 
pre-clearance has to be done in such a way that supports both our 
security and facilitation objectives and does not disadvantage our 
domestic airlines at the same time. The full committee plans on taking 
up pre-clearance legislation once again later this month, and I look 
forward to its quick passage by the House and Senate.
    Defeating terrorists' ability to move internationally has long been 
a focus area for this subcommittee. We have, and will continue to be 
champions for pushing the border out because our National security 
demands it.
    So we will look forward to hearing from Mr. Wagner on CBP's plans 
to expand pre-clearance operations overseas.
    I am also interested in hearing more about the work of DHS-led 
vetted units that work throughout the world, including Central America, 
to help build capacity of law enforcement, and help lead to better 
conditions to reduce migration to the United States.
    Our enemies are intent on attacking our country and are actively 
seeking to avoid our countermeasures. We must be one step ahead, 
instead of constantly reacting to their latest attack. DHS's presence 
overseas is a crucial part of the ``outer ring of border security'' and 
provides many opportunities to break up plots early in the travel and 
visa cycle.
    The purpose of this hearing is to make sure DHS and the Government 
as a whole are taking full advantage of every tool in our tool kit to 
limit terrorist mobility as far from our shores as possible, and ensure 
that limited taxpayer funds are used as effectively as possible. I 
thank the witnesses for being here today and look forward to your 
testimony. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mrs. Miller. At this time the Chairman now recognizes the 
Ranking Member of the subcommittee, the gentleman from Texas, 
Mr. Vela.
    Mr. Vela. I would like to thank Chairman Miller for holding 
today's hearing, examining the Homeland Security's 
international border security program. I would like to file my 
written statement for the record, if you might.
    Mrs. Miller. Without objection.
    [The statement of Ranking Member Vela follows:]
                Statement of Ranking Member Filemon Vela
                              June 2, 2015
    Thank you, Chairman Miller, for holding today's hearing examining 
the Department of Homeland Security's international border security 
programs.
    As you know, my Congressional district is located along our 
Nation's Southwest Border, in the Rio Grande Valley of Texas.
    While some may presume that DHS's border security activities begin 
and end at our physical borders, that is not the case.
    For example, a truck carrying goods from one of the hundreds of 
maquiladoras across the border into my district would likely have 
submitted an electronic manifest to Customs and Border Protection an 
hour or more before arriving at the bridge.
    Similarly, the shipper of a container arriving at the Port of 
Brownsville would have transmitted information about the shipment to 
CBP days before its arrival at the port.
    The container may have even been shipped from a Container Security 
Initiative port, where CBP has personnel stationed at overseas ports 
helping to secure U.S.-bound maritime cargo.
    Likewise, a traveler arriving at the local airport in Brownsville 
may have started his journey at a CBP Pre-clearance airport abroad, 
landing in Houston without needing to go through customs before 
boarding a flight to our local airport.
    Each of these is an example of DHS efforts to begin screening 
people and goods before they arrive.
    Their efforts not only better secure our borders, but also 
facilitate legitimate travel and commerce that is the lifeblood of 
border communities and so vital to our Nation's economy.
    DHS has a significant global footprint, with about 1,800 personnel 
at posts around the world.
    Given the location of my district, I am interested in hearing from 
our witnesses today about what DHS is doing in Mexico, particularly to 
combat transnational criminal organizations and enhance border 
security.
    For instance, I hope to hear about ICE's Transnational Criminal 
Investigative Units (TCIUs).
    These units consist of ICE personnel working with specially vetted 
foreign law enforcement personnel to fight transnational criminal 
threats.
    It's my understanding that ICE plans to expand the program by 
establishing a TCIU in Mexico this year.
    I hope to have an update today about the status of and plans for 
that unit.
    I am also interested in understanding about whether the new TCIU is 
expected to help address the on-going security situation in Tamaulipas, 
Mexico, across from my Congressional district.
    The security and prosperity of my district and so many communities 
like it depends in part on security and prosperity across the border, 
and I want to continue to be supportive of U.S. efforts to that end.
    Again, I thank the witnesses for joining us today and I look 
forward to your testimony.
    With that, Madam Chairman, I yield back the balance of my time.

    Mr. Vela. I know that the focus of this hearing is our 
international security programs around the country. But just 
here recently--if you might indulge me just for these 5 minutes 
to focus in on one particular area, which happens to be my back 
yard, because just this weekend, as I was in my district, 
friends, neighbors came to me with stories of gun battles that 
occurred just last Friday not with 5 miles from my district 
office.
    It was about 2 years that Mr. Bersin and I first met in my 
office, and we discussed this issue. For the last year-and-a-
half I have repeatedly had discussions and warned 
administration officials about the degree of violence in 
Matamoros, Mexico, which is right at the border of Brownsville. 
More than 100,000 people have died in Mexico since 2006.
    The most recent travel warning reads like this--the most 
recent State Department travel warning for Mexico warns 
visitors to the state of Tamaulipas, which includes Matamoros, 
Reynosa, and Nuevo Laredo, which are right across the border 
from the towns of Brownsville, McAllen, and Laredo, to defer 
all nonessential travel. Throughout the state, violent crime, 
including homicide, armed robbery, carjacking, kidnapping, 
extortion, and sexual assault, pose significant safety risks.
    State and municipal law enforcement capacity is limited to 
nonexistent in many parts of Tamaulipas. Violent conflicts 
between rival criminal elements and/or the Mexican military can 
occur in all parts of the region and at all times of day. 
Violent criminal activity occurs more frequently along the 
Northern Border.
    While no highway routes through Tamaulipas are considered 
safe, the highways between Matamoros Cuidad Victoria, Reynosa 
Cuidad Victoria, Cuidad Victoria and Tampico, Monterrey and 
Nuevo Laredo, Matamoros and Reynosa, and Monterrey and Reynosa 
are more prone to criminal activity.
    Organized criminal groups sometimes target public and 
private passenger buses traveling through Tamaulipas. These 
groups sometimes take all passengers hostage and demand ransom 
payments. In Tamaulipas, U.S. Government employees are subject 
to movement restrictions and a curfew between midnight and 6 
a.m.
    Matamoros, Reynosa, Nuevo Laredo, and Cuidad Victoria have 
experienced numerous gun battles and attacks with explosive 
devices in the past year. The number of reported kidnappings in 
Tamaulipas is among the highest in Mexico. The number of U.S. 
citizens reported to the consulates in Matamoros and Nuevo 
Laredo as being kidnapped, abducted, or disappearing 
involuntarily in 2014 has also increased.
    In February, the United States Consulate in Matamoros 
reported 227 separate security incidents in the U.S. border 
region, including a carjacking at a supermarket frequented by 
the U.S. Consulate employees. The 227 incidents represented 
only a fraction of actual criminal activity due to self-
censorship by journalists.
    On February 2 and February 5, the U.S. Consulate General in 
Matamoros warned U.S. citizens of increased violence due to 
rolling gun battles between Los Ciclones and Los Metros 
factions.
    U.S. Consulate staff and their families were advised to 
restrict travel temporarily due to the violence. That month the 
U.S. State Department warned Consulate personnel to stay 
indoors to avoid the daytime convoys of cartel gunmen, some 
armed with grenade launchers.
    During that same week, two of my constituents, both 
veterans of Iraq and Afghanistan, went missing, and we have not 
heard or seen from them since.
    What I am hoping today is to get some sort of assessment of 
our diplomatic efforts to ensure that the government of Mexico 
addresses the situation and, also, to get an assessment of what 
can we do from the standpoint of enhancing our capability of 
ensuring the safety of not just our Homeland Security employees 
in Mexico, but our Department of Justice employees and 
Department of State employees.
    With that, I yield back.
    Mrs. Miller. I want to thank the gentleman very much for 
his opening statement because, as this subcommittee hearing is 
about the outer ring of border security as we think about 
terrorist activity, it is stopping it, as we said, before it 
comes from overseas, here right on our own border, particularly 
the Southern Border.
    As you know, I am on the Northern Border. But listening to 
you about gun battles and kidnapping and people disappearing, 
some of our veterans, et cetera, in criminal activity that is 
happening there, it is a very sober reminder of the challenges 
that we face. All the folks that are lined up in front of us 
today are helping us to face those challenges. So that we will 
be something that will be interested in hearing.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    Let me formally introduce our four witnesses. We will start 
with Mr. Bersin, who serves as the assistant secretary and 
chief diplomatic officer of the U.S. Department of Homeland 
Security's Office of Policy.
    In this capacity, Mr. Bersin oversees DHS' international 
engagement, serves as the principal adviser to the Secretary in 
all matters pertaining to international affairs, and is 
responsible for leading the Department's strategic planning and 
policy formulation functions. From 2010 to 2011, Mr. Bersin 
served as acting commissioner of the U.S. Customs and Border 
Protection.
    Mr. John Wagner became deputy assistant commissioner, 
Office of Field Operations, in April 2014. He has been assigned 
to U.S. Customs and Border Protection at headquarters in the 
District of Columbia since 1999 and has worked on many 
different policy and operational issues. He has led many of the 
OFO's business transformation efforts, including the deployment 
of the internationally acclaimed Global Entry program and the 
Automated Passport Control kiosk for international travelers.
    Mr. Lev Kubiak assumed the role of assistant director of 
international operations at U.S. Immigration and Customs 
Enforcement in June 2014. In this position, Mr. Kubiak is 
responsible for a budget of more than $130 million and the 
operational oversight of 63 offices in 46 countries and 8 
Department of Defense liaison offices, with over 400 personnel. 
He began his career as a special agent in the agency's Detroit 
office in 1995. In November 2001, he transferred to the U.S. 
Customs Services Office of International Affairs in Washington, 
DC.
    Ms. Rebecca Gambler is a director in the U.S. Government 
Accountability Office, Homeland Security and Justice Team, 
where she leads GAO's work on border security, immigration, and 
the Department of Homeland Security's management and 
transformation. Prior to joining GAO, Ms. Gambler worked at the 
National Endowment for Democracy's International Forum for 
Democratic Studies.
    Their full statement will appear in the record.
    The Chairman now recognizes Mr. Bersin for his testimony.

  STATEMENT OF ALAN D. BERSIN, ASSISTANT SECRETARY AND CHIEF 
   DIPLOMATIC OFFICER, OFFICE OF POLICY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Bersin. Good morning. Thank you, Chairman Miller, 
Ranking Member Vela, distinguished Members of the subcommittee. 
It is, as always, a privilege to appear before this 
subcommittee. The title of the hearing is instructive: ``The 
Outer Ring of Border Security: DHS's International Security 
Programs.''
    We have learned that homeland security, as the Chairman 
suggested, is inherently a transnational enterprise. We 
basically learned that, in a global world, the idea of waters 
as lines on a map separating one country from another is an 
old-fashioned idea, although it still has currency and 
relevance.
    Instead, we have come to see homeland security as involving 
the flow globally of massive numbers of people, goods, ideas, 
capital, and now electrons on a 7/24/365-day-a-year basis. This 
is about massive, intensified flows of goods and people.
    From this perspective, the homeland security mission is to 
keep dangerous people and dangerous things away from the 
American homeland. That requires, by definition, that we not 
see the traditional borders--land, sea, and air--as being the 
first line of defense, the 327 airports, seaports and land 
ports that dot our Nation, but, rather, that we view those 
ports of entry as the last line of defense and that, in fact, 
we do accomplish a lot of the work of securing the flow of 
goods and people, ideas, capital, and electrons toward the 
homeland by engaging with foreign partners abroad and by 
placing DHS employees abroad to actually start the process of 
gaining advance information so that we can conduct risk 
assessments and begin to differentiate between high-risk and 
low-risk cargo and high-risk and low-risk passengers coming to 
the homeland.
    The Department learned this in two events in 2009 and 2010. 
In 2009, the underwear bomber, Umar Farouk Abdulmutallab, 
bought an airplane ticket in Africa, got on an airplane in 
Africa, flew to Schiphol airport in the Netherlands and then 
boarded a Northwest airliner flight headed for Detroit, 
intending to blow up the airplane over Detroit. Were it not for 
the actions of passengers on the plane, he would have 
accomplished his terrorist aim.
    In fact, on that flight, our CBP employees had identified 
Abdulmutallab as a high-risk passenger and would have placed 
that person in secondary at the Fort Wayne County International 
Airport. But, of course, he would have completed his terrorist 
act.
    We learned, therefore, that the border began in the context 
of air travel at the point of departure at Schiphol airport in 
the Netherlands and that we needed to rework the way in which 
we accomplished our work of protecting the American homeland.
    What has happened in the last 5 years with advance 
passenger information systems, with pre-clearance developments, 
with immigration advisory programs, all of which Deputy 
Assistant Commissioner Wagner will be in a position to explain, 
and with the visa security program, and other programs that 
Homeland Security International conducts, we have actually 
moved the borders out. By placing our people abroad, working 
with foreign governments can secure the flow of people toward 
the homeland.
    Ten months later, in October 2010, the Yemen plot from al-
Qaeda in the Arabian Peninsula demonstrated the same with 
regard to cargo. The stuffing of PETN and explosives into the 
printer cartridges, intending to blow up a UPS and FedEx 
airplane, led us to look at securing cargo long before it 
arrived. All of those packages were addressed to synagogues in 
Chicago.
    Yes, indeed we had intended to look at those packages when 
they arrived at the mail depot in O'Hare. We learned that that 
was not feasible. As a result, we have engaged and have 
expanded the international programs.
    I look forward, Madam Chairman, Members of the committee, 
to discussing those programs with you, the theory behind it, 
during the course of your questioning. Thank you.
    [The prepared statement of Mr. Bersin follows:]
                  Prepared Statement of Alan D. Bersin
                              June 2, 2015
                              introduction
    Chairman Miller, Ranking Member Vela, and distinguished Members of 
the subcommittee, it is a privilege to appear before you today. My name 
is Alan Bersin; I am the assistant secretary of international affairs 
and chief diplomatic officer in the Office of Policy at the U.S. 
Department of Homeland Security (DHS).
    Canada and Mexico are the United States' first- and third-largest 
trade partners and the first- and second-largest destination for U.S. 
goods, and are therefore a top priority for DHS activities and 
resources. The Caribbean represents a third geographic border, and many 
of its countries share a robust social-cultural, economic, political, 
and security connection with the United States on account of strong 
trade and historic immigration ties. DHS continues to work closely with 
Canada to implement the Beyond the Border Declaration and Action Plan 
for Perimeter Security and Economic Competitiveness. Similarly, with 
Mexico, DHS continues work through the Declaration on 21st Century 
Border Management and the High-Level Economic Dialogue toward an 
efficient secure border that encourages legitimate trade, travel, and 
commerce, and also deters criminal activity. These efforts with Canada 
and Mexico demonstrate the degree of success we can achieve when 
governments collaborate to jointly address issues of common interest 
based on a shared agenda.
    Our close partnerships with counterparts in Canada, Mexico, and the 
Caribbean have contributed to a more secure and economically prosperous 
homeland. The expedited movement of lawful trade and travel through our 
ports of entry is central to DHS's mission and a key component of our 
Nation's economic security interests. Today, I will highlight a series 
of international programs that have advanced the Department's efforts 
to simultaneously enhance the security of our Nation and facilitate 
legitimate trade and travel. Our efforts support the key priorities 
outlined in the Quadrennial Homeland Security Review to:
    (1) Prevent terrorism and enhance security;
    (2) Secure and manage our borders;
    (3) Enforce and administer our immigration laws;
    (4) Safeguard and secure cyber space; and
    (5) Strengthen National preparedness and resilience.
    In addition to these goals, from the Secretary's Unity of Effort 
initiative, we have developed an institutional mechanism called the DHS 
International Footprint Review which establishes and achieves 
international goals, such as dismantling transnational criminal 
organizations and deterring illicit flows of goods and people, through 
an appropriate alignment of resources.
    DHS achieves these goals through coordination, cooperation, and 
when appropriate, joint action with our international partners in all 
domains: Land, air, and sea, as well as where applicable, public health 
security and cyber space cooperation.
Land Domain
    In the land domain, the Department has outlined strategies for 
cooperation along both the Northern and Southern Borders. In 2012, DHS 
released the Northern Border Strategy, which takes a Department-wide 
look at the Northern Border, considers all of DHS's authorities, 
responsibilities, and capabilities, and sets out a cross-cutting and 
all-missions approach. Similarly, in early 2015, the Department 
promulgated the Southern Border and Approaches Campaign Plan, which 
creates three new Joint Task Forces and utilizes component assets and 
resources toward a series of unified goals within the Western 
Hemisphere. These task forces include:
  <bullet> Joint Task Force--East, which is responsible for our 
        Southeast Maritime approaches, led by U.S. Coast Guard (USCG) 
        Vice Admiral William ``Dean'' Lee;
  <bullet> Joint Task Force--West, which is responsible for our 
        Southwest land border, led by U.S. Customs and Border 
        Protection (CBP) Commander Robert L. Harris; and
  <bullet> Joint Task Force for Investigations, which will support the 
        work of the other two Task Forces and focus on investigations 
        throughout the Nation and with our foreign partners, led by 
        U.S. Immigration and Customs Enforcement (ICE) Homeland 
        Security Investigations Special Agent-in-Charge David Marwell.
    Additionally, we have Border Enforcement Security Task Forces 
(BEST) along both borders that include investigative teams focused on 
cross-border crime, with participation from foreign law enforcement 
personnel. The BESTs have proven to be an effective law enforcement 
mechanism to identify threats, address vulnerabilities, and identify, 
disrupt, and dismantle transnational criminal organizations.
    The United States also strengthens its law enforcement and 
emergency management capabilities in the land domain with reciprocal 
information-sharing practices, the development of cross-border 
communication networks, and the sharing of best practices. Through 
Beyond the Border and the 21st Century Border Initiative, the United 
States partners with our Canadian and Mexican counterparts to improve 
technology to increase communication among emergency management 
personnel. These partnerships also extend to increasing communication 
among law enforcement personnel to better dismantle the transnational 
criminal organizations that threaten our citizens' security. Similarly, 
the United States works with our Canadian counterparts to coordinate 
research and development, acquisition, and operational activities to 
maximize resources in order to protect the homeland against weapons of 
mass destruction threats.
    As part of the Beyond the Border Declaration and Action Plan, the 
United States and Canada have developed coordinated Entry/Exit 
Information Systems at their shared land border to facilitate exchanges 
of biographical entry information such that an entry into one country 
is considered an exit from the other. This exchange helps enhance the 
integrity of the immigration system and border management practices, as 
it is important for Canada and the United States to be able to 
determine when individuals both enter and depart our respective 
countries. Since June 2013, our countries exchange exit data for third-
country nationals, including permanent residents of Canada and the 
United States, at all common automated land ports of entry. The final 
phase, now anticipated to occur in 2016, will expand the program to 
share information on all travelers including U.S. and Canadian 
citizens.
    DHS also recently implemented Criminal History Information Sharing 
(CHIS) agreements with three Central American and three Caribbean 
nations that share criminal history information on foreign nationals 
who were convicted of certain offenses, prior to their removal from the 
United States.
Air Domain
    In the air domain, DHS relies heavily on its Electronic Advance 
Passenger Information System (eAPIS) and Passenger Name Record (PNR) 
data, along with the Secure Flight Program, to assess passengers' level 
of risk and provide instructions to border officers and airlines on how 
to handle inbound passengers, including identifying those who require 
further inspection. DHS collaborates with Canada, Mexico, and Caribbean 
nations through joint information exchange programs, including a 
liaison exchange program that has Canadian and Mexican analysts co-
located at the U.S. National Targeting Center. U.S. and Caribbean 
nations likewise have established information sharing and response 
operations with the Caribbean Community and Common Market (CARICOM). 
Through the Beyond the Border Action Plan, Canada will implement an 
electronic travel authorization similar to DHS's Electronic System for 
Travel Authorization (ESTA) program for travelers from Visa Waiver 
Program countries. The United States and Canada are seeking to enhance 
the sharing of information in this domain through the on-going 
implementation of automated sharing of biographic and biometric visa 
and immigration information.
    Additionally, CBP partners with foreign nations to share joint 
technologies and information to counter multiple threats from 
Transnational Criminal Organizations. The Office of Air and Marine 
shares an exclusive version of the Air and Marine Operations 
Surveillance System (AMOSS) with the countries of Mexico and the 
Bahamas, in addition to incorporating sensor data from Mexico, Canada, 
the Bahamas, and the Dominican Republic to enhance Domain Awareness and 
international response capability beyond their respective borders. In 
addition to AMOSS, Mexico also utilizes CBP's Advanced Targeting 
System--Global (ATS-G) to create rule sets which aid in identifying 
potential threats.
    Furthermore, CBP has pre-clearance locations in four Caribbean and 
eight Canadian airports. Pre-clearance enables the Department to 
simultaneously secure our borders while facilitating lawful trade and 
travel by conducting in foreign airports immigration, customs, and 
agriculture inspections of international air passengers that would 
otherwise be performed on arrival in the United States. Currently, CBP 
is considering expanding pre-clearance operations into additional 
airports world-wide. Passengers are also screened in accordance with 
the Transportation Security Administration's domestic standards, which 
enable passengers to exit directly into the sterile area of the 
destination airport. Three of the Canadian pre-clearance locations also 
screen checked baggage to domestic standards per the ``No Hassle Flying 
Act of 2012''. This allows baggage to be transported directly to 
connecting flights. Currently, CBP is looking to expand this effort 
into other countries.
Sea Domain
    In the sea domain, DHS' USCG maintains high levels of cooperation 
with foreign partners. The USCG engages with the Mexican navy on a 
variety of issues, including: Interdictions, training exercises, search 
and rescue, and environmental challenges such as oil spills. In 
addition, the Canada-U.S. Shiprider program trains and cross-designates 
Canadian and U.S. law enforcement officers who enforce the law on both 
sides of the international boundary while riding together on the same 
vessels. Through Shiprider, armed Canadian and U.S. law enforcement 
officers are able to transit back and forth across the border to help 
secure it from threats to National security, as well as to prevent 
cross-border smuggling and trafficking. Through the North American 
Maritime Security Initiative (NAMSI), the Coast Guard also works 
jointly with Canadian and Mexican sea services to exercise emergency 
response plans, policies, and procedures as they pertain to maritime 
security and defense readiness events.
    The United States likewise has had effective engagement with 
Caribbean nations in the sea domain. The U.S. Government provided 
Defender Class SAFE boats to several Caribbean nations. The USCG in 
partnership with the Department of Defense helps maintain their mission 
readiness for search-and-rescue and law-enforcement interdiction 
operations with maintenance and programmatic support through the State 
Department's Caribbean Basin Security Initiative (CBSI)-funded 
Technical Assistance Field Teams. Additionally, in an effort to codify 
and standardize a comprehensive approach to effective, consistent 
international maritime security in the post-9/11 world, the 
International Maritime Organization and its Member States developed the 
International Ship and Port Facility Security (ISPS) Code. The ISPS 
Code is the principal international blueprint for the implementation of 
maritime security measures and supporting infrastructure. Furthermore, 
the USCG conducts the TRADEWINDS exercise, which is a maritime training 
exercise for the Eastern Caribbean and regional partner nations. This 
exercise brings together police and defense forces to exercise regional 
information-sharing networks, improve maritime interdiction 
coordination, develop regional training capacity, improve asset 
sustainment and maintenance, and address illicit trafficking.
Public Health Security and Cyber Space Cooperation
    In addition to engagement with our international partners in the 
air, land, and sea domains, DHS also works with our neighboring 
countries to strengthen our defenses against threats that are 
borderless. For instance, DHS coordinates closely with our North 
American partners on public health security issues. During the Ebola 
outbreak, DHS worked with international partners to share information 
and best practices, coordinate efforts, and align screening procedures. 
Canada is following protocols similar to those of CBP with regard to 
active and passive targeting of travelers from affected countries and 
stationing quarantine officers at its six largest airports.
    Beyond the response to Ebola, both Canada and Mexico are part of 
the North American Plan for Animal and Pandemic Influenza (NAPAPI). DHS 
is one of four U.S. Government agencies that participate in the NAPAPI 
Senior Coordinating Body and is represented by the assistant secretary 
for health affairs and chief medical officer. In March 2015, DHS 
participated with our health security working group partners as a 
Senior Coordinating Body Member in a trilateral table-top exercise 
which focused on information sharing and emergency communications, 
sample sharing, and the availability of and access to medical 
countermeasures.
    Cyber space is a global, borderless domain that is an engine of 
economic growth and social opportunity yet presents unique challenges 
requiring close cooperation with our international partners. DHS works 
with international partners to exchange threat and vulnerability 
information, jointly address cyber crime, and build capacity to secure 
cyber space for the common good. The DHS National Protection and 
Programs Directorate/Cybersecurity and Communications (NPPD/CS&C) 
office also works closely with Canada. NPPD/CS&C maintains a strong 
partnership with Public Safety Canada (PS) on cybersecurity issues, 
including the regular exchange of cyber threat and vulnerability 
information, and incident response coordination between the National 
Cybersecurity and Communications Integration Center (NCCIC) and the 
Canadian Cyber Incident Response Center. CS&C and PS also work toward 
improved collaboration on issues of mutual interest through 
implementation of the Cybersecurity Action Plan, agreed to in 2012. 
Also, the Cyber Security Division of DHS Science and Technology's 
Homeland Security Advanced Research Projects Agency has engaged in 
several jointly-funded collaborative cybersecurity research and 
development projects covering multiple areas of cybersecurity with 
Defense Research and Development Canada (DRDC).
    DHS's bilateral cybersecurity collaboration with Mexico has focused 
on incident management coordination, industrial control systems 
security, and cybersecurity awareness-raising, and DHS and Mexico are 
exploring ways to increase this collaboration including issues such as 
cyber crime and critical infrastructure security and resilience. CS&C 
and Mexico also cooperate through regional and international fora, 
particularly the Organization of American States.
    The United States Secret Service (USSS) and ICE likewise have 
equally important relationships with Canada and Mexico on cyber. The 
ICE attaches in Canada and Mexico support Canadian and Mexican law 
enforcement in the investigation of cyber-related crime. These cases 
include, but are not limited to: Child exploitation investigations; 
mass marketing fraud; identity theft; on-line illegal marketplaces; 
counter-proliferation; intellectual property rights violations; and 
related money laundering via the internet. The USSS international 
engagement in Mexico and Canada regarding cyber is primarily focused on 
investigations of transnational cyber crime and training foreign law 
enforcement on cyber crime investigations.
                               conclusion
    Collaboration with our neighboring countries and partners is a key 
element to strengthening homeland security. DHS will continue to 
partner with countries around the world to most effectively carry out 
our core missions. Through international collaboration--in particular 
our work at our land and maritime borders with our North American 
partners--we not only enhance our ability to prevent terrorism and 
transnational crime, but we also leverage the resources of our 
international partners to more efficiently and cost-effectively secure 
global trade and travel. The successes in our partnerships with Canada, 
Mexico, and the Caribbean highlight the importance of the Department's 
international engagement.
    Thank you for the opportunity to testify today. I welcome the 
opportunity to address your questions.

    Mrs. Miller. Thank you very much.
    The Chairman recognizes Mr. Wagner.

STATEMENT OF JOHN WAGNER, DEPUTY ASSISTANT COMMISSIONER, OFFICE 
 OF FIELD OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Wagner. Good morning, Chairman Miller, Ranking Member 
Vela, and distinguished Members of the subcommittee. It is a 
privilege to appear today to discuss U.S. Customs and Border 
Protection's international security programs and how these 
efforts support our strategy to secure America's borders and 
facilitate legitimate travel.
    CBP processes nearly 100 million travelers each year who 
arrive via commercial aircraft at our Nation's ports of entry. 
As CBP anticipates threats and develops measures to prevent 
terrorists and their threats from succeeding, CBP deploys a 
strategy that focuses on securing air travel by pushing our 
borders outward through, first, early identification of 
potential threats through targeting and information sharing; 
second, the ability to address these threats overseas; and, 
third, by building capacity with the global community to 
improve information sharing and early enforcement capabilities.
    Through this strategy, we seek to ensure that our physical 
border is the last line of defense rather than the first. At 
CBP, we implement this strategy through a complement of 
international security programs, each with differing 
authorities and capabilities, some of which are dependent on 
the host country, supported by CBP's targeting capabilities and 
deployed strategically based on deliberative assessments, 
including National security, volume of travel, workload, and 
economic benefits. This multi-layered, intelligence-driven 
strategy covers different stages of the international travel 
sequence starting well in advance of a traveler boarding a 
plane.
    So before traveling to the United States, most foreign 
nationals seeking admission to the United States must obtain 
either a visa or a Visa Waiver Program travel authorization 
through the ESTA program. From this moment, CBP begins 
deploying targeting and analytical capabilities through our 
National Targeting Center to perform assessments of the 
applications against law enforcement, intelligence, and 
National security-related data.
    Last fiscal year CBP denied over 39,000 ESTA applications, 
of which over 800 were related to issues of National security. 
Once travel is booked by a person, but before that flight 
departs, CBP uses airline reservation data, passenger manifest, 
previous border inspection information, intelligence, and law 
enforcement information to identify potential areas of National 
security concern or otherwise inadmissible travelers.
    CBP's then able to address any potential concerns through a 
suite of three international enforcement and liaison programs: 
Preclearance, the Immigration Advisory Program and, finally, 
our Regional Carrier Liaison Groups. Pre-clearance provides the 
highest level of enforcement capability overseas with 
inspection of clearance of passengers on foreign soil prior to 
boarding the plane.
    At these locations, CBP Officers operate with authorities 
and operational capabilities similar to those in the United 
States in uniform and with the legal authorities to question 
travelers and inspect luggage per the negotiated agreements 
with the host country.
    We have over 600 CBP Officers and agriculture specialists 
supporting pre-clearance in 15 locations in 6 countries. Last 
year pre-clearance accounted for over 16 million travelers, 
which is about 15 percent of all U.S.-bound commercial air 
passengers. Over 10,000 of these travelers were found to be 
inadmissible pre-clearance locations last year.
    As announced by the Secretary last Friday, we plan to enter 
into pre-clearance negotiations with 10 additional airports in 
9 more countries. While there is much work to do, we will be 
aggressively pursuing and commencing negotiations with each of 
these countries in the very near future. These airports were 
selected on the basis of 4 key evaluation criteria: Security, 
facilitation, feasibility, and strategic impact.
    The second program I would like to discuss is the 
Immigration Advisory Program, where we have CBP Officers at 11 
airports in 9 foreign countries. They work closely and directly 
with foreign authorities and air carriers to identify and 
address potential concerns, when necessary, and make 
recommendations to the airlines to not board identified 
individuals.
    Our officers receive passenger selection information from 
CBP's National Targeting Center that has identified these 
individuals of concern. IAP officers also assess the potential 
risk of travelers through roving- and intelligence-based 
targeting. Last year the program prevented over 3,500 
individuals from boarding flights to the United States, of 
which about 100 had National security concerns.
    The third program, the Regional Carrier Liaison Group, 
under our National Targeting Center, provides coverage at 
locations not staffed by pre-clearance or the Immigration 
Advisory Program. This group utilizes established relationships 
with the commercial airline carriers and form direct lines of 
communication to prevent passengers of concern from boarding 
U.S.-bound flights who may pose a security threat, have 
fraudulent documents or are otherwise inadmissible.
    Last fiscal year the Regional Carrier Liaison Group issued 
over 7,500 no-board recommendations to prevent travel to the 
United States, of which over 250 had National security 
concerns.
    CBP's targeting capabilities continue up to the point of 
departure and even while the flight is en route to the United 
States, vetting passengers and travel information, including 
visas and ESTA authorizations. This continual vetting ensures, 
as noted earlier, that any changes in a traveler's eligibility 
are identified in real time and allows CBP to coordinate 
appropriate actions, such as referring individuals for further 
inspection when he or she arrives.
    CBP will continue to engage with our interagency and 
informational partners and commercial air carriers to improve 
and expand our international security efforts.
    So thank you for the opportunity to testify today, and I 
look forward to answering any of your questions.
    [The prepared statement of Mr. Wagner follows:]
                   Prepared Statement of John Wagner
                              June 2, 2015
                              introduction
    Chairwoman Miller, Ranking Member Vela, and distinguished Members 
of the subcommittee. Thank you for the opportunity to discuss the 
integral role of international programs and initiatives as part of U.S. 
Customs and Border Protection's (CBP) multi-layered strategy to secure 
America's borders and facilitate legitimate travel.
    On a typical day, CBP welcomes to the United States nearly a 
million travelers at our air, land, and sea ports of entry (POEs) with 
almost 300,000 of those arriving by air. The volume of international 
air travelers has increased by 22 percent from 2009 to 2014 and is 
projected to increase 4 to 5 percent each year for the next 5 years. As 
threats in the commercial air travel environment have evolved to 
include not only aircraft and travelers present in the United States, 
but also aircraft bound for the United States, we can no longer view 
our border as the first line of defense, but rather as a last line of 
defense.
    CBP's multi-layered, intelligence-driven strategy are integrated 
into every aspect of our travel security operations at every stage 
along the international travel sequence--including when an individual 
applies for U.S. travel documents; reserves, books or purchases an 
airline ticket; checks-in at an airport; while en route; and upon 
arrival at a U.S. port of entry. Accordingly, an integral part of CBP's 
multi-layered strategy is CBP's pre-departure strategy. A critical 
objective of this pre-departure strategy is to work closely with our 
international partners in extending our zone of security to interdict 
threats as far from the homeland as possible.
    In concert with our international partners, CBP strives to ensure 
that travelers who present a risk are appropriately interviewed or 
vetted before boarding a flight bound for the United States, and that 
any document deficiencies are addressed before traveling to the United 
States. CBP has placed officers in strategic airports overseas to work 
with carriers and host nation authorities, and has built strong 
partnerships with airline representatives to improve our ability to 
address threats as early as possible and effectively expand our 
security efforts beyond the physical borders of the United States.
    CBP continually evaluates and supplements our layered security 
measures with enhancements that strengthen our ability to identify and 
prevent the international travel of those individuals or groups who 
wish to do us harm. The success of our security measures depends on the 
ability to gather, target, analyze, share, and respond to information 
in a timely manner--using both strategic intelligence to identify 
existing and emerging threat streams, and tactical intelligence to 
perform link analysis and targeted responses.
    These efforts seek to keep our international air transportation 
sectors safe and prevent threats from ever reaching the United States. 
These efforts also enhance efficiency and create savings for the U.S. 
Government and the private sector by preventing inadmissible travelers 
from traveling to the United States.
                     extending the zone of security
    CBP's pre-departure strategy is a risk-based, layered approach to 
security that extends our border security efforts outward to detect, 
assess, and mitigate, at the earliest possible point, any risk posed by 
travelers before they reach the United States. Focused on identifying 
and addressing potential risks long before they reach our borders, 
CBP's pre-departure security efforts integrate multiple key 
capabilities and programs that together form a layered strategy for 
applying security capabilities at multiple points along the travel 
cycle. CBP's sophisticated targeting systems at the National Targeting 
Center (NTC) receive advance passenger information to identify 
potential risks and CBP's overseas enforcement programs--Preclearance, 
Immigration Advisory and Joint Security Programs (IAP/JSP), and 
Regional Carrier Liaison Groups (RCLGs)--provide the ability to address 
those risks or prevent the movement of identified threats toward the 
United States at the earliest possible point.
Targeting and Detecting Risk
    As part of CBP's pre-departure strategy and throughout the 
international travel cycle, the NTC continuously analyzes passenger 
information, including visas and Visa Waiver Program (VWP) travel 
authorizations. CBP devotes its resources to identifying the highest 
threats, including those who may not have been previously identified by 
law enforcement or the intelligence community.
    As threats evolve, CBP works in close partnership with our foreign 
counterparts--including those in Europe, North Africa, and the Middle 
East--to develop greater situational awareness of emerging threats, 
leverage each other's capabilities to affect threat networks, and 
coordinate enforcement actions. These concerns are not limited to the 
United States and there is a growing international commitment to 
combating this shared threat to our security.
    CBP works closely with other U.S. Department of Homeland Security 
(DHS) components, the Department of State (DOS), the Department of 
Defense, the intelligence community, and our foreign counterparts to 
leverage assets and resources to detect and address emerging terrorist 
threats and identify and address any and all potential security 
vulnerabilities. Staff from the NTC and CBP Office of Intelligence 
interact with our foreign counterparts--including those from Five Eyes 
countries,\1\ and in the Middle East--on an almost daily basis to 
collaborate on efforts to meet our mutual needs.
---------------------------------------------------------------------------
    \1\ United States, Canada, Australia, New Zealand, and the United 
Kingdom.
---------------------------------------------------------------------------
    We continually seek opportunities to foster these relationships as 
a means to build a network of partners that share information and react 
quickly to identify and mitigate constantly evolving threats to the 
homeland. This network approach enables CBP to proactively initiate 
engagement so that when a threat is identified, information flows 
quickly not only to those directly involved in a particular activity, 
but to all identified stakeholders.
    Our networking efforts include leveraging CBP's own targeting 
capabilities to provide foreign country and partnering government 
officials with technical solutions for identifying risk, and provide a 
platform for CBP to work with foreign partners to build and enhance 
their own capabilities to use advance air passenger data to target for 
counterterrorism, law enforcement, and immigration purposes. This 
includes supporting law enforcement cooperation and information sharing 
particularly regarding foreign fighters transiting the region through 
enhanced traveler risk assessments. These efforts all work toward 
establishing a foreign partner's baseline capability of vetting and 
conducting risk assessments on advance information of commercial air 
travelers.
    In order to enhance our relationship with partner nations and to 
support our mission to disrupt the movement of terrorists, criminals, 
instruments of terror and contraband, CBP has developed a program to 
place liaison officers with partner nation law enforcement agencies. 
Their principal duty will be to facilitate the flow of law enforcement 
information, specifically related to the travel of terrorists and the 
flow of goods that support terrorism. However, officers assigned as 
liaisons will also have the ability to exchange information related to 
counter trafficking, the use of fraudulent travel documents, criminal 
travel, and illicit currency smuggling.
    Additionally, CBP positions Attaches and International Advisors in 
multiple countries around the world. Attaches are posted in U.S. 
Embassies and Consulates abroad and work in unison with the CBP 
component offices to secure the border from beyond by working closely 
with the host foreign government and overseas representatives of all 
the U.S. Government agencies represented at post to detect and deter 
transnational criminal activity. Attaches work closely with 
investigative personnel of U.S. and host nation law enforcement and 
intelligence agencies and advise the U.S. Ambassador or Consul General 
on CBP programs and capabilities. CBP Attaches support and oversee all 
CBP programs in their area of responsibility and educate stakeholders 
about CBP's international programs including travel security and 
various capacity-building programs. International Advisors are usually 
embedded with the U.S. Department of Defense and/or host nation border 
agencies and serve as CBP international advisors, liaisons, and 
consultants on border management issues. The advisor represents CBP's 
views on international migration issues and activities including the 
safety, reliability, and efficiency of transnational borders and 
provides expertise to foreign nations including infrastructure 
modernization, contraband detection, and interdiction.
    Our interagency and international partnerships are critical 
elements of our pre-departure strategy and our international travel 
security operations. We work closely with our partners at multiple 
stages of the travel continuum to identify and, if necessary, address 
the potential threat at the earliest opportunity.
Visas and Travel Authorization Security
    From the moment of potential travel, an initial layer of defense in 
securing international air travel is preventing dangerous persons from 
obtaining visas, travel authorizations, and boarding passes. Before 
boarding a flight destined for the United States, most foreign 
nationals must obtain a nonimmigrant visa (NIV)--issued by a U.S. 
embassy or consulate--or, if they are eligible to travel under the VWP, 
they must apply for a travel authorization through the Electronic 
System for Travel Authorization (ESTA).\2\
---------------------------------------------------------------------------
    \2\ Exceptions would be citizens of countries under other visa 
exempt authority, such as Canada. Citizens of countries under visa 
exempt authority entering the United States via air are subjected to 
CBP's vetting and inspection processes prior to departure. In the land 
environment, they are subjected to CBP processing upon arrival at a 
U.S. port of entry.
---------------------------------------------------------------------------
    Through ESTA, CBP conducts enhanced vetting of VWP applicants in 
advance of travel to the United States, in order to assess whether they 
are eligible to travel under the VWP, could pose a risk to the United 
States or the public at large. In response to increasing concerns 
regarding foreign fighters and other terrorist threats, DHS recently 
strengthened the security of VWP by implementing enhancements to ESTA. 
These enhancements include a series of additional questions VWP 
travelers must answer on the ESTA application, including other names or 
citizenships; parents' names; contact and employment information; and 
city of birth. These improvements are designed to provide an additional 
layer of security for the VWP and increase our ability to distinguish 
between lawful applicants and individuals of concern.
    CBP also conducts vetting of non-immigrant visas. Although the visa 
application and adjudication processes rest with DOS, NTC conducts 
continuous vetting of U.S. nonimmigrant visas that have been recently 
issued, revoked, and/or denied. This recurrent vetting ensures that 
changes in a traveler's visa status are identified in near-real time, 
allowing CBP to immediately determine whether to provide a ``no board'' 
recommendation to a carrier, recommend that DOS revoke the visa, or 
whether additional notification should take place for individuals 
determined to be within the United States.
    To further enhance visa screening efforts, U.S. Immigration and 
Customs Enforcement (ICE), CBP, and DOS have implemented an automated 
visa application screening process that significantly expands DHS's 
ability to identify serious threats to National security and public 
safety at the point of inception in an individual's immigration life-
cycle and revolutionizes the way the U.S. Government screens foreign 
nationals seeking entry to the United States. The program also results 
in synchronized reviews of information across these agencies and allows 
for a unified DHS response and recommendation regarding a visa 
applicant's eligibility to be issued a visa. This process also serves 
as a precursor to and works in conjunction with the current DOS 
Security Advisory Opinion (SAO) and Advisory Opinion (AO) programs. 
This collaborative program leverages the three agencies' expertise, 
authorities, and technologies, such as CBP's Automated Targeting System 
(ATS), to screen pre-adjudicated visa applications. These efforts 
significantly enhance the U.S. Government's anti-terrorism efforts, 
improving the existing process by extending our borders outward and 
denying high-risk applicants the ability to travel to the United 
States.
Pre-Departure Targeting
    Once travel is booked, CBP gathers information, assesses risk, and 
conducts pre-departure vetting for all international flights departing 
for the United States by commercial air. CBP leverages all available 
advance passenger data--including Passenger Name Record (PNR) and 
Advance Passenger Information System (APIS) data, previous crossing 
information, intelligence, and law enforcement information, as well as 
open-source information in its anti-terrorism efforts at the NTC--to 
make risk-based operational decisions before a passenger boards an 
aircraft, continuing until the traveler enters the United States.
    When a traveler purchases a ticket for travel to the United States, 
PNR is generated in the airline's reservation system, which includes 
information on itineraries, co-travelers, changes to the reservation, 
and payment information. CBP receives passenger data from commercial 
air carriers at operationally determined intervals up to 96 hours prior 
to departure and concluding at the scheduled departure time.
    Further, APIS regulations require that commercial air carriers 
transmit all passenger and crew manifest information before departure, 
prior to securing the aircraft doors. CBP vets APIS information, which 
includes passenger biographic data and travel document information, on 
all international flights to and from the United States against the 
Terrorist Screening Database (TSDB), criminal history information, 
records of lost or stolen passports, public health records, and prior 
immigration or customs violations and visa refusals. CBP uses APIS and 
PNR data to identify known or suspected threats before they depart the 
foreign location.
    The NTC vetting process for international passengers continues 
while the flight is en route to the United States in order to identify 
any travelers who, although not necessarily National security risks, 
may need a more thorough inspection at the port of entry upon arrival 
in the United States.
Early Enforcement Approaches
    Supported by these targeting efforts, CBP leverages its overseas 
enforcement capabilities to prevent terrorists and other inadmissible 
aliens from boarding commercial aircraft bound for the United States 
through three programs that further support efforts to extend our zone 
of security: Preclearance; the Immigration Advisory Program and the 
Joint Security Program; and Regional Carrier Liaison Groups.
    In fiscal year 2014, CBP's pre-departure programs identified over 
20,000 passengers who would have been deemed inadmissible to the United 
States and prevented such passengers from boarding aircraft at foreign 
locations. This effort significantly increases security and reduces the 
cost to the U.S. Government for adverse action processing costs for 
travelers who would have been denied admission at U.S. ports of entry, 
approximately $50 million, and the airlines who are required to return 
inadmissible travelers to their points of origin.
Pre-clearance Operations
    Pre-clearance operations provide CBP's highest level of capability 
overseas and support CBP's extended border strategy by providing for 
the inspection and clearance of commercial passengers on foreign soil, 
prior to departure for the United States. At pre-clearance locations, 
CBP Officers work in uniform, have the legal authorities to question 
travelers and inspect luggage, and complete the same immigration, 
customs, and agriculture inspections of passengers as at domestic ports 
of entry. Passengers at a pre-clearance facility found to be 
inadmissible to the United States are denied boarding to the airplane. 
All mission requirements are completed at the pre-clearance port prior 
to travel, which allows the aircraft to arrive at a domestic airport 
gate in the United States and travelers to proceed to their final 
destination without further CBP processing; a major efficiency for 
travelers, carriers, and airports.
    Currently, CBP operates 15 air pre-clearance locations in 6 
countries: Canada (Calgary, Edmonton, Halifax, Montreal, Ottawa, 
Toronto, Vancouver, and Winnipeg), Ireland (Dublin and Shannon), The 
Bahamas (Freeport and Nassau), Aruba, Bermuda, and the United Arab 
Emirates (Abu Dhabi). In fiscal year 2014, CBP officers processed 17.4 
million travelers for entry into the United States at international 
pre-clearance locations, which included 21 percent of all commercial 
aircraft and 16 percent of travelers arriving by air destined for the 
United States. CBP also conducts immigration pre-inspection on ferries 
in Victoria, Canada and on cruise vessels and trains in Vancouver, 
Canada.
    At our pre-clearance location in the United Arab Emirates (UAE), 
CBP Officers exercise broad authorities to help mitigate threats, both 
known and unknown, based on our analysis of current threats. The UAE 
receives flights from Yemen, North, West, and East Africa (Morocco, 
Nigeria, Kenya, Ethiopia, and Sudan), Saudi Arabia, Pakistan, Iraq, 
Iran, Lebanon, Bangladesh, and India, all high-risk pathways for 
terrorist travel. In the UAE, CBP Officers are allowed a full 
complement of authorities to question and search individuals and 
baggage, access to the full complement of technology systems, and are 
authorized to have access to firearms and other law enforcement tools. 
Additionally, ICE's Homeland Security Investigations directorate has 
Attache offices located overseas to follow up on any investigative 
leads generated from CBP pre-clearance operations.
    Pre-clearance offers benefits for both travel security and 
facilitation, more comprehensive than those available with IAP/JSP and 
RCLGs. On a sliding scale, each provides more security coverage than 
the next--RCLGs are located State-side and provide recommendations 
through established relationships with commercial airlines; IAP and JSP 
provide on-site location, but function in an advisory capacity with 
voluntary compliance; preclearance, however, provides for the complete 
security screening and formal determination of admissibility to the 
United States for all travelers before passengers ever board a U.S.-
bound flight. Through preclearance, CBP is able to work with foreign 
law enforcement officials and commercial carriers to prevent the 
boarding of potentially high-risk travelers, leveraging its full legal 
authority, as opposed to a purely advisory role. Pre-clearance also 
provides unique facilitation benefits, allowing pre-cleared passengers 
to proceed to their final destination without further CBP processing, 
as if they had arrived on a domestic flight.
    Reinforcing CBP's layered approach to security, CBP always retains 
the authority to conduct further inspection or engage in enforcement 
action of a pre-cleared flight upon its arrival in the United States. 
Pre-clearance affords the United States the highest level coverage and 
ability to intercept threats before they reach the United States. In 
light of the terrorist threat we face now and in the future, there will 
be locations where pre-clearance provides important security benefits 
available in no other way.
    In October 2014, CBP announced a plan to evaluate and prioritize 
foreign airports for expansion of pre-clearance operations, and 
requested all interested airports to express their interest in writing 
prior to December 2014. Letters of interest were received from 25 
airports, and DHS Technical Teams, consisting of CBP and Transportation 
Security Administration (TSA) representatives, completed onsite 
evaluations to determine the feasibility of pre-clearance operations at 
applicant airports. Based on the technical visits and information 
collected, CBP submitted a comprehensive report outlining 
recommendations for pre-clearance expansion locations to the DHS 
Secretary. With the announcement of potential pre-clearance locations, 
CBP and TSA will work through an interactive process with each selected 
airport to develop a feasible pre-clearance model beneficial to both 
parties, including an examination of feasibility by CBP, TSA, and 
respective airport stakeholders.
Immigration Advisory Program (IAP)/Joint Security Program (JSP)
    Compared to CBP's pre-clearance operations, IAP and JSP provide a 
more limited level of coverage at international locations. Through IAP, 
CBP officers in plain clothes are posted at major gateway airports in 
Western Europe, with a presence in Asia and the Middle East including: 
Amsterdam, Frankfurt, London Heathrow, London Gatwick, Manchester, 
Madrid, Paris, Tokyo, and Doha. Building on the IAP concept, CBP 
launched the JSP, partnering with host country law enforcement to 
identify air passengers linked to terrorism, narcotics, weapons, and 
currency smuggling. JSP officers are posted in Mexico City and Panama 
City.
    Using advance information from the NTC, IAP officers work in 
partnership with host government authorities to identify possible 
terrorists and other high-risk passengers. When a threat is identified, 
IAP officers issue no-board recommendations to commercial air carriers, 
helping to prevent terrorists, high-risk and improperly-documented 
travelers from boarding commercial flights destined for the United 
States. In Mexico and Panama, JSP officers collaborate with host 
government law enforcement to jointly engage travelers arriving into 
and departing the host country (U.S. and foreign-to-foreign commercial 
flights). Using mobile technology, IAP and JSP officers conduct 
database queries and coordinate with the NTC to confirm whether a 
traveler is a watch-listed individual. IAP and JSP officers also 
evaluate the potential risks presented by non-watch-listed travelers.
    The IAP and JSP programs are based on the cooperation of the 
airlines and the host government. IAP and JSP officers do not have the 
legal authority to compel air carrier or traveler compliance that CBP 
Officers have at a port of entry in the United States or at a pre-
clearance facility overseas. Nevertheless, an IAP or JSP officer's no-
board recommendations to an air carrier regarding inadmissible 
travelers are generally accepted and followed by airlines.
Regional Carrier Liaison Groups
    Finally, the RCLGs were developed to provide coverage of non-IAP 
airports and support pre-clearance airports. Located in Honolulu, 
Miami, and New York, RCLGs are staffed by CBP officers and utilize 
established relationships with the commercial airlines to prevent 
passengers who may pose a security threat, have fraudulent documents, 
or are otherwise inadmissible from boarding flights to the United 
States.
                arrival processing and trusted travelers
    CBP's use of advance information, our pre-departure targeting 
operations, and our overseas footprint as part of CBP's pre-departure 
strategy, all comprise critical parts of CBP's multi-layered security 
strategy to address concerns long before they reach the physical border 
of the United States. It is important to note that upon arrival in the 
United States, all persons are subject to inspection by CBP Officers. 
CBP Officers review entry documents, query CBP and other law 
enforcement databases, collect biometrics,\3\ and interview each 
traveler to determine the purpose and intent of their travel, and 
whether any further inspection is necessary based on, among other 
things, National security, admissibility, customs, or agriculture 
concerns.
---------------------------------------------------------------------------
    \3\ Biometrics are collected for most foreign nationals arriving at 
U.S. airports.
---------------------------------------------------------------------------
    In addition, CBP Officers remove from circulation all counterfeit, 
fraudulent, and altered travel documents, as well as lost or stolen 
travel documents presented for use by an individual other than the 
rightful holder, such as those presented by impostors. CBP's Fraudulent 
Document Analysis Unit (FDAU) serves as the central repository and 
point of analysis for all fraudulent travel documents interdicted or 
recovered by CBP personnel. FDAU analysis of fraudulent documents 
provides intelligence, alerts, and training back to the field as well 
as serves as a mechanism to remove fraudulent documents from 
circulation to prevent their further use--a lesson learned from the 9/
11 Commission Report. This cyclical process adds a layer of security to 
the homeland by removing an additional opportunity for misuse.
    CBP's Carrier Liaison Program (CLP) is designed to enhance border 
security by increasing commercial carrier effectiveness in identifying 
improperly documented travelers destined to the United States and 
removing fraudulent documents from circulation. Specially-trained CBP 
Officers provide interactive training to commercial air carrier 
participants to improve the air carrier's ability to detect and disrupt 
improperly documented passengers. The CLP is another key component of 
CBP's layered approach and enhances CBP's ability to thoroughly vet 
passengers based on their true identities. Since the program's 
inception in 2005, CLP has provided training to more than 34,800 
airline industry personnel.
Trusted Traveler Programs
    Identifying and separating low-risk travelers from those who may 
require additional scrutiny is a key element in CBP's efforts to 
facilitate and secure international travel. CBP's trusted traveler 
programs, such as Global Entry, provide expedited processing upon 
arrival in the United States for pre-approved, low-risk participants 
through the use of secure and exclusive lanes and automated kiosks. At 
airports, program participants proceed to Global Entry kiosks, present 
their machine-readable passport or U.S. permanent resident card, place 
their fingertips on the scanner for fingerprint verification, and 
complete a customs declaration. The kiosk issues the traveler a 
transaction receipt and directs the traveler to baggage claim and the 
exit. Travelers must be pre-approved for the Global Entry program. All 
applicants undergo a rigorous background check and in-person interview 
before enrollment. While Global Entry's goal is to speed travelers 
through the process, members may still be selected for further 
examination when entering the United States. Any violation of the 
program's terms and conditions will result in appropriate enforcement 
action and revocation of the traveler's membership privileges.
                               conclusion
    As terrorists change their methods and tactics and technologies 
continue to evolve, CBP will work with DHS, Federal and international 
partners--as well as commercial carriers--to adapt and respond swiftly 
and effectively. We will continue to collaborate to strengthen on-going 
efforts and facilitate the development of new innovative tools to 
secure international air travel against terrorists and others who 
threaten the safety of the traveling public and the security of our 
Nation.
    Chairwoman Miller, Ranking Member Vela, and Members of the 
subcommittee, thank you for the opportunity to testify today. I look 
forward to answering your questions.

    Mrs. Miller. Thank you.
    Mr. Kubiak.

 STATEMENT OF LEV J. KUBIAK, ASSISTANT DIRECTOR, INTERNATIONAL 
OPERATIONS, HOMELAND SECURITY INVESTIGATIONS, U.S. IMMIGRATION 
 AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Kubiak. Good morning, Chairman Miller, Ranking Member 
Vela, and distinguished Members of the subcommittee.
    ICE Homeland Security Investigations' most important 
function is to address threats to the homeland, and doing so 
before they reach our Nation's borders enhances the security of 
trade, travel, and financial systems by identifying and 
disrupting the illicit actors, organizations, and activities 
within them.
    There are more than 400 HSI personnel and 63 offices around 
the world with foreign counterparts to mitigate threats to 
public safety and National security through our unique 
investigative authorities.
    In fiscal year 2014, these attaches' efforts through their 
international counterpart relationships resulted in 2,500 
criminal arrests, the seizure of 11,000 firearms, over a 
million pounds of narcotics, 400 million dollars' worth of 
counterfeit merchandise, and $43 million in international 
criminal proceeds.
    In recent years, HSI has increased our effectiveness 
through these relationships in regions of the world that are 
most important to us, with programs such as the transnational 
criminal investigative unit and the enhancement of the visa 
security program. In our TCIUs, HSI special agents work 
alongside their vetted foreign counterparts to investigate 
criminal organizations that threaten the security and economy 
of both our countries. These TCIUs increase partner 
capabilities, lead to the exchange of best practices, and build 
stronger relationships which facilitate seamless information 
exchange between HSI and the host nation partners.
    Vetted foreign officers attend an intense 3-week course at 
our academy taught by HSI and funded through partnerships with 
the Department of State, which builds both of our joint 
capacities to attack criminal networks. Just last month I had 
the honor of participating in the graduation of 12 Panamanians 
and 12 Guatemalan Federal police, who are now back in their 
countries working along HSI agents to decrease crime. I would 
invite each of you to attend one of those graduations which we 
will have this summer.
    Currently HSI has TCIU partnerships with 8 countries with 
more than 200 foreign law enforcement officers. During fiscal 
year 2014, those TCIUs arrested 631 suspects, seized 30,000 
pounds of cocaine, and $14 million in cash from various 
criminal organizations, to name a few accomplishments.
    We are working with our Mexican counterparts to create 2 
units there and additional units in Central America both this 
year and next with funding provided by Congress. Those units 
will increase our joint efforts to attack human smuggling and 
illicit financial networks that destabilize those countries and 
operate throughout the Americas.
    The visa security program is another critical program that 
enhances security of the United States while facilitating 
legitimate travel. As this committee well knows, the Homeland 
Security Act directs DHS to assist the State Department in 
identifying visa applicants who seek to enter the United States 
for terrorist or criminal activities. The visa adjudication 
process presents the first opportunity to assess whether an 
individual seeking entry to the United States poses a threat.
    HSI, its sister agency, CBP, and the State Department have 
collaborated to enhance visa security efforts through 
automation. The PATRIOT system now automatically screens visa 
application data against DHS holdings prior to the applicant's 
interview.
    The PATRIOT system uses interagency and intelligence 
community resources to identify National security and public 
safety threats, and the screening is done jointly by HSI and 
CBP. The individuals that pose a threat are subject then to 
additional in-depth review of visa applications both here in 
the United States and by specially trained his agents overseas.
    When a review and interview substantiate the threat, HSI 
agents recommend refusal or revocation of visas. In fiscal year 
2014, the visa security program reviewed more than 2.2 million 
visa applications received at the 21 posts. The State 
Department has, to date, concurred with every one of our visa 
denial recommendations, nearly 8,700 last year.
    It is these types of outcomes that drive us to expand. 
Therefore, with additional funding provided by Congress this 
year, HSI is expanding visa security operations to four 
additional posts before the end of the fiscal year and 
anticipates additional posts next year if funding allows.
    While TCIUs and the visa security program demonstrate two 
important international capabilities, the bulk of HSI's 
principle engagement with international partners remains the 
routine interaction on investigative matters between our 
foreign deployed special agents and their international 
partners.
    Every day, at 63 locations around the world, HSI special 
agents collaborate regionally with foreign law enforcement 
officers to dismantle or disrupt transnational criminal 
organizations. Our foreign personnel work tirelessly with their 
counterparts to investigate the full scope of our broad 
investigative authority.
    We are involved in many other innovative efforts to enhance 
the Nation's security through international partnerships. We 
have strong collaboration with Europol. We have cooperation on 
cybercrimes with Interpol. We are attacking wildlife 
trafficking in Africa and throughout the Asia region. We are 
securing trade and travel throughout the world within these 
other efforts and these activities.
    I appreciate the time of the committee today, and I look 
very much forward to your questions.
    [The prepared statement of Mr. Kubiak follows:]
                  Prepared Statement of Lev J. Kubiak
                              June 2, 2015
                              introduction
    Chairman Miller, Ranking Member Vela, and distinguished Members of 
the subcommittee: Thank you for the opportunity to discuss the 
international engagement and enforcement efforts of U.S. Immigration 
and Customs Enforcement (ICE). I am honored to provide an overview of 
our international operations and highlight some successes and the 
challenges I believe we currently face.
    I would like to briefly outline the structure of ICE to help you 
understand our mission and responsibilities. ICE is divided into two 
operational components: Enforcement and Removal Operations (ERO) and 
Homeland Security Investigations (HSI). The role of ERO is to identify, 
apprehend and, ultimately, remove unlawful aliens from the United 
States in accordance with law and policy. HSI investigates 
transnational crime and conducts a wide range of domestic and 
international criminal investigations arising from the illegal movement 
of people and merchandise into, within, and out of the United States, 
often in coordination with other Federal agencies.
    HSI enforces more than 400 Federal laws and regulations with 
jurisdiction over the investigation of crimes with a nexus to U.S. 
borders and ports of entry. HSI focuses its broad investigative 
authority on three operational priorities--border security, public 
safety, and counterterrorism/National security. Our agency investigates 
offenses that stem from its traditional customs and immigration 
authorities: Weapons smuggling and illegal exports of defense-related 
materiel and technology; war crimes and human rights violations; 
narcotics and contraband smuggling; financial crimes; cyber crimes and 
child exploitation; human trafficking and human smuggling; commercial 
fraud and intellectual property violations; transnational gangs; and 
document and benefit fraud, to name a few.
    I would like to broadly discuss HSI's international operations and 
note some successes we recently achieved with our foreign partners. One 
of HSI's most important priorities from an international perspective is 
to stop threats before they reach our Nation's borders. HSI deploys 
approximately 250 special agents and 170 support staff to 63 offices in 
46 countries. HSI works with foreign counterparts to mitigate threats 
to public safety and National security through investigative activity. 
In fiscal year 2014, HSI collaborated with international counterparts 
to arrest over 2,500 suspects abroad, and to seize $43 million in 
criminal proceeds, 11,000 firearms, 1 million pounds of narcotics, and 
$397 million worth of counterfeit merchandise. These statistics 
demonstrate HSI's efforts to attack transnational criminal 
organizations (TCOs) at their root in foreign countries.
               transnational criminal investigative units
    The effectiveness of HSI overseas stems from the quality of 
relationships we have with our foreign law enforcement counterparts. 
The relationships we build with foreign authorities are fundamental to 
attacking TCOs. HSI is particularly proud of the formalized 
relationships it has established with numerous foreign law enforcement 
partners through its Transnational Criminal Investigative Units 
(TCIUs).
    TCIUs are investigative units comprised of HSI special agents 
working alongside foreign law enforcement to investigate common 
threats. Foreign personnel assigned to our TCIUs undergo a strict 
vetting process, including a polygraph examination. Upon completion of 
vetting, candidates must successfully complete a 3-week International 
Task Force Agent Training course at the Federal Law Enforcement 
Training Center in Glynco, Georgia. This training is provided by ICE 
and funded by the Department of State (DOS) Bureau of International 
Narcotics and Law Enforcement Affairs. I recently attended one of these 
courses, and I can tell you first-hand that the training we provide to 
our international partners is top-notch. It is based on the training we 
provide to our own special agents.
    Upon completion of training, TCIU members work together with HSI to 
investigate significant threats. TCIUs facilitate seamless information 
exchange between HSI special agents and their host nation partners. 
These units obviously provide a great benefit to the United States, but 
they also serve the host nation's interest. TCIUs enhance the host 
country's ability to investigate and prosecute individuals involved in 
transnational criminal activity that threatens the National security of 
the partner nation. TCIUs identify targets, collect evidence, share 
intelligence, and facilitate the prosecution of TCOs, both in-country 
and through the U.S. judicial system. Currently, HSI has eight TCIUs 
with more than 200 foreign law enforcement officers. During fiscal year 
2014, our TCIUs arrested a combined total of 631 suspects, seized 
nearly 30,000 pounds of cocaine, more than $14 million in cash, $17 
million worth of counterfeit merchandise, and numerous firearms from 
TCOs.
    TCIUs routinely accomplish significant outcomes for HSI overseas. 
Let me highlight two recent successes that underscore the value our 
units. Last year, HSI special agents and their partners in the 
Colombian TCIU developed criminal intelligence that resulted in the 
seizure of 6,910 kilograms of cocaine at the port of Cartagena. The 
estimated street value of that seizure exceeded $200 million.
    In 2013, Panamanian authorities developed information on a North 
Korean vessel transiting the Panama Canal from Cuba to North Korea. The 
vessel's manifest described its cargo as sugar. Panamanian authorities 
selected the vessel for inspection, and the TCIU discovered 240 tons of 
munitions, radar equipment, and two MiG fighter jets concealed beneath 
20 million pounds of sugar. The military materiel violated United 
Nations Security Council Resolution 1718, and was seized by Panamanian 
authorities based on the professional work done by the TCIU.
    We plan to expand the TCIU program to Mexico this year and to 
Jordan, Kenya, and the Philippines in fiscal year 2016.
                 the visa security program and patriot
    As you know, the Homeland Security Act directs DHS to assist in the 
identification of visa applicants who seek to enter the United States 
for illegitimate purposes, including criminal offenses and terrorism-
related activities. The visa adjudication process often presents the 
first opportunity to assess whether a potential visitor or immigrant 
poses a threat to the United States. The Visa Security Program (VSP) 
represents HSI's front line in protecting the United States against 
terrorists and criminal organizations by preventing foreign nationals 
who pose a threat to National security from entering the United States.
    Within HSI's international footprint, we deploy specially-trained 
agents overseas to screen and vet visas at 21 high-risk locations in 
order to identify potential terrorist and criminal threats before they 
reach the United States. HSI accomplishes this vitally important role 
by conducting targeted, in-depth reviews of individual visa 
applications and applicants prior to visa issuance, and making 
recommendations to consular officers to refuse or revoke visas when 
warranted. HSI actions complement the consular officers' screening, 
applicant interviews, and reviews of applications and supporting 
documentation. ICE will expand visa security operations at four 
additional posts this year, which will bring the total to 25.
    ICE and U.S. Customs and Border Protection (CBP), in collaboration 
with DOS, have initiated an automated program to enhance visa security 
efforts. The Pre-Adjudicated Threat Recognition Intelligence Operations 
Team (PATRIOT) initiative is the automated screening of visa 
application information against DHS holdings prior to the applicant's 
interview. The process includes in-depth vetting of applicants 
identified as potentially having derogatory information, who may be of 
investigative interest, or ineligible to receive U.S. visas. The 
PATRIOT initiative takes a risk-based approach and uses interagency 
resources from ICE, CBP, DOS, and the intelligence community to 
identify National security and public safety threats.
    In fiscal year 2014, the VSP reviewed over 2 million visa 
applications, which resulted in the refusal of more than 8,600 visas. 
Over 5,000 of these refusals were because the applicants had some 
suspected connection to terrorism or terrorist organizations. In 
addition, the VSP enhances visa vetting by increasing automated data 
exchange between DOS and the CBP National Targeting Center (NTC). The 
NTC provides tactical targeting and analytical research to prevent 
terrorist and terrorist weapons from entering the United States. The 
flow of on-line visa information to DHS systems is now automated and 
information is sent back to DOS using an automated interface. ICE will 
leverage these modernization efforts to increase investigations of visa 
applicants who pose the greatest threats to National security.
    Furthermore, ICE deploys VSP personnel to the NTC to augment and 
expand current operations. The co-location of VSP personnel at the NTC 
helps increase both communication and information sharing. The NTC 
conducts pre-departure vetting of all travelers on flights bound for 
the United States. Vetting identifies high-risk passengers who should 
be the subject of no-board recommendations to carriers, including those 
whose visas have been revoked.
             coordination with the u.s. department of state
    Effective border security requires broad information sharing and 
cooperation among U.S. agencies. In October 2006, ICE entered into to a 
memorandum of understanding (MOU) with the DOS Bureau of Consular 
Affairs in order to exchange visa and immigration data. The agreement 
allows ICE and DOS to exchange information contained in each other's 
electronic databases pertaining to foreign persons seeking entry into 
the United States. This exchange of information allows Consular Affairs 
personnel to query and access ICE and CBP records. Consular Affairs 
personnel can then take into consideration prior violations when 
adjudicating visa applications for foreign persons who have applied to 
enter the United States. The exchange of information allows ICE 
enforcement personnel to query the DOS Consular Consolidated Database 
and access passport and visa application information of persons under 
investigation by ICE. This information sharing also acts as an exchange 
for ongoing criminal investigations. If, for example, a suspect of an 
on-going HSI criminal investigation applies for a visa, ICE and DOS 
employees can collaborate to achieve an advantageous outcome.
    In January 2011, ICE signed an MOU outlining roles, 
responsibilities, and collaboration between ICE, Consular Affairs, and 
the Diplomatic Security Service. To facilitate information sharing and 
reduce duplication of efforts, ICE and DOS conduct collaborative 
training and orientation prior to overseas deployments. Once they are 
deployed to overseas posts, ICE and DOS personnel work closely together 
in working groups, meetings, training, and briefings, and engage in 
regular and timely information sharing.
          human smuggling and human trafficking investigations
    Investigating human smuggling and human trafficking organizations 
is one of our highest priorities. HSI is the principal Federal agency 
for enforcing U.S. laws related to international human smuggling and 
human trafficking. Let me explain the difference between human 
smuggling and human trafficking. Human smuggling is a transportation-
based crime that violates the integrity of the border and the 
immigration system. Human trafficking, on the other hand, is a crime 
against a person involving the exploitation of an individual, and is 
often referred to as modern-day slavery.
    HSI has developed a comprehensive, victim-centered approach to 
aggressively target human traffickers. HSI investigates various forms 
of human trafficking, including sex trafficking, in which a commercial 
sex act is induced by force, fraud, or coercion, or in which the victim 
is a minor; and labor trafficking, in which the victim is forced or 
coerced into labor against his or her will. HSI's foreign offices focus 
on two lines of effort to counter human trafficking: Operational 
coordination with foreign counterparts and building foreign partner 
capacity. In fiscal year 2014, HSI provided human trafficking training 
or outreach to 10,650 international partners in 723 instances. We also 
are fully committed to the DHS Blue Campaign, which unifies the 
Department's outreach efforts.
    In response to last year's crisis of unaccompanied Central American 
children arriving at U.S. borders in unprecedented numbers, HSI 
initiated Operation Coyote to target human smuggling organizations. The 
operation was designed to stem the flow of illegal Central American 
migration, including that of unaccompanied children. HSI deployed 
additional personnel to Mexico and Central America to leverage partners 
and focus efforts on human smuggling investigations.
    To date, Operation Coyote has resulted in HSI opening 482 
investigations, 1,037 criminal arrests, and the seizure of more than 
$1.2 million in currency. HSI special agents assigned throughout 
Central America routinely share criminal intelligence with foreign 
partners and build capacity in human smuggling and human trafficking 
enforcement. In collaboration with international partners, HSI 
identified 15 major human smuggling organizations operating in Central 
America and Mexico in fiscal year 2014. Six of these organizations have 
been dismantled and the remaining nine organizations have been 
disrupted.
    HSI continues to work closely with CBP. In December 2013, HSI 
established a permanent presence at the NTC, and created the NTC-
Investigations Division (NTC-I) to enhance collaboration of our shared 
border security mission. The establishment of the NTC-I provides HSI 
with an increased presence to work alongside CBP subject-matter experts 
in support of the entire U.S. border security continuum, from CBP 
interdictions and HSI investigations to the joint exploitation of 
intelligence and cross-cutting border enforcement efforts.
    As part of our overarching efforts to combat human smuggling and 
human trafficking, we also lead two interagency initiatives. The Human 
Smuggling Cell harnesses DHS's unique access to trade and financial 
data to develop information on individuals or organizations involved in 
human smuggling, and serves as the coordination center for all HSI 
investigative operations to combat human smuggling organizations. In 
addition, the interagency Human Smuggling and Trafficking Center works 
with HSI's foreign offices to exchange information with foreign 
governments and organizations to prevent human smuggling, human 
trafficking, and the criminal facilitation of clandestine terrorist 
travel.
       counterterrorism and counter-proliferation investigations
    Secretary Johnson has directed DHS components to continue to focus 
on counterterrorism activities as a top priority. At ICE, we seek to 
leverage our expertise and the investigative methodologies to counter 
criminal and terrorist organizations. Both sets of bad actors seek to 
exploit legitimate U.S. trade, travel, and financial systems in 
furtherance of their financial or ideological objectives.
    Within HSI, our goal is to prevent terrorist attacks against the 
United States before they materialize by ensuring that our various 
investigative programs, and domestic and international field offices, 
collaborate within the intelligence community and with Federal, State, 
local, Tribal, and international law enforcement partners. HSI is the 
second-largest contributor of Federal task force agents to the Federal 
Bureau of Investigation's Joint Terrorism Task Forces (second only to 
the FBI itself), which rely on our investigative expertise and broad 
enforcement authorities.
    HSI also contributes to the Federal Government's efforts to prevent 
foreign adversaries from illegally obtaining U.S. military products and 
sensitive technology, including weapons of mass destruction and their 
components. HSI's Counter-Proliferation Investigations (CPI) program 
oversees a broad range of investigations related to export law 
violations. CPI targets the trafficking and illegal export of 
conventional military equipment, firearms, controlled technology, and 
materials used to manufacture weapons of mass destruction, including 
chemical, biological, radiological, and nuclear materials. HSI enforces 
U.S. export laws involving military items and controlled dual-use 
goods, as well as products going to sanctioned or embargoed countries.
    As part of these efforts, HSI leads the Export Enforcement 
Coordination Center (E2C2), a multi-agency center that serves as the 
Government's clearinghouse for the exchange of information and 
intelligence related to export enforcement. The E2C2 serves as a 
conduit between Federal law enforcement agencies and the intelligence 
community for export licensing and enforcement activities.
    HSI frequently enables its foreign partners to make significant 
seizures or arrests in this realm based on our criminal intelligence. 
For example, in June 2013, special agents assigned to Mexico provided 
specific information to Mexican authorities that resulted in the 
seizure of 98 firearms, including assault rifles, a .50 caliber rifle, 
grenade launchers, numerous handguns, and 30,000 rounds of ammunition 
from the Gulf Cartel.
    In September 2014, acting on time-sensitive information from a 
domestic investigation, HSI special agents provided criminal 
intelligence to Spanish authorities that resulted in the discovery of 
90 assault rifles and handguns hidden in secret compartments inside a 
vehicle exported from the United States to Lebanon. These cases 
highlight HSI's abilities to leverage its network of foreign law 
enforcement contacts to achieve desirable outcomes.
                        financial investigations
    HSI must target its resources to the command and control elements 
of a TCO. Often the critical node of a TCO is its finances. The goal of 
all HSI's financial investigations is to deny TCOs their ill-gotten 
gains. HSI continually evaluates current threats and adapts its efforts 
to stay ahead of developing trends. For instance, HSI focuses on 
several emerging trends, including interstate funnel accounts, which 
are high-activity accounts with multiple deposits from numerous sources 
by TCOs to move illicit proceeds within the interior of the United 
States; trade-based money laundering, through which TCOs transfer 
illicit proceeds disguised as legitimate international trade; and 
virtual currencies, which TCOs use to disburse illicit proceeds with 
the benefits of anonymity, liquidity, and international accessibility.
    HSI financial investigations focus on identifying the methods by 
which TCOs move, store, and attempt to legitimize illicit proceeds 
through money laundering, bulk currency smuggling, and other financial 
and trade-related crimes. HSI has enjoyed great success in this area in 
recent years. For example, an HSI New York money laundering 
investigation recently revealed that HSBC Bank was the financial 
institution of choice for Mexican drug cartels, which deposited 
hundreds of millions of dollars in illicit proceeds into accounts at 
that bank. That investigation revealed major compliance shortcomings on 
the part of HSBC, which ultimately resulted in the criminal forfeiture 
of $1.9 billion.
    In another example, from this past fall, an investigation led by 
our offices in Los Angeles and Bogota, Colombia targeted drug cartels 
that laundered illicit proceeds through a complex, trade-based money 
laundering scheme involving retail stores in the Los Angeles Garment 
District. In this case, HSI seized more than $142 million in currency, 
bank accounts, and property--an agency record for the largest seizure 
to occur in one investigation in a single day.
                   child exploitation investigations
    HSI has a long and successful history in investigating and 
disrupting the sexual exploitation of children, principally involving 
two categories of crimes: Production/distribution of child pornography 
and child sex tourism. HSI employs the latest technology to collect 
evidence and track the activities of individuals and organized groups 
sexually exploiting children through the use of websites and peer-to-
peer trading. HSI leverages the unique resources of its Cyber Crimes 
Center, which enables special agents with specialized expertise, 
resources, technical advice, and training to assist in a variety of 
cyber crimes.
    HSI works with several well-regarded institutions to investigate 
child exploitation. For example, HSI receives law enforcement tips from 
the National Center for Missing and Exploited Children's CyberTipline 
regarding suspected crimes of sexual exploitation committed against 
children. HSI has shared thousands of leads with foreign law 
enforcement to rescue children from lives of abuse, fear, and shame. 
HSI also partners with the Virtual Global Task Force, which seeks to 
build relationships between international law enforcement agencies, 
non-government organizations, and private industry to help protect 
children from transnational child sexual exploitation.
    Many times, our special agents encounter evidence of the sexual 
abuse of children on-line, but are initially unable to determine who or 
where the suspects or victims are located. The HSI Victim 
Identification Program combines technological and investigative 
capabilities and resources to rescue child victims of sexual 
exploitation. HSI analyzes and enhances material that depicts abuse to 
identify clues that may lead to the identity of the victim, suspect, or 
geographic location.
    HSI's technical expertise and its relationship with foreign law 
enforcement recently saved a child. In early 2014, British police 
reported to HSI's office in London that they had witnessed a suspect 
abuse an infant in a live internet forum. Working together, HSI and its 
British counterparts combed through digital clues and determined the 
suspect appeared to reside in California. Within 7 hours of British 
police witnessing this unconscionable act, HSI's office in Los Angeles 
located and arrested the suspect, and rescued his 3-month-old infant 
son. Thanks to quick actions of HSI and its partner, the suspect was 
recently convicted and sentenced to 21 years in prison and, indeed, the 
child's life was changed for the better. I can think of no better 
example of the value of our foreign partnerships.
                               conclusion
    I am grateful for the opportunity to appear before you today and 
for your continued support of ICE and its law enforcement mission. I am 
confident that we will continue to build upon the momentum we have 
generated as a result of our considerable operational achievements 
around the world. HSI remains committed to working with this 
subcommittee to forge a strong and productive relationship going 
forward to help prevent and combat threats to our Nation.

    Mrs. Miller. Thank you.
    Ms. Gambler.

 STATEMENT OF REBECCA GAMBLER, DIRECTOR, HOMELAND SECURITY AND 
     JUSTICE ISSUES; U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Gambler. Good morning, Chairwoman Miller, Ranking 
Member Vela, and Members of the subcommittee.
    I appreciate the opportunity to testify at today's hearing 
to discuss GAO's work reviewing DHS efforts to screen and 
inspect passengers and maritime containerized cargo before they 
board or are put on vessels to the United States.
    DHS deploys multiple inspection and targeting programs 
abroad to address high-risk travelers and cargo. According to 
DHS, as of May 2015, the Department and its components had 
about 1,800 FTEs in almost 80 countries.
    My remarks today will reflect our findings in two areas 
related to DHS' international programs: No. 1, Departmental 
actions to align programs abroad with resource use and 
strategic priorities and, No. 2, observations on specific DHS 
overseas programs.
    First, DHS has taken action toward aligning its programs 
abroad with resource use and priorities. For example, DHS has 
established a governance board to coordinate crosscutting 
issues related to international engagement.
    DHS has also reviewed its international footprint or its 
complete set of resources deployed abroad to evaluate the 
placement of resources on the basis of DHS' mission areas, 
cost, and potential for engagement with host countries. 
However, DHS has not yet established specific Department-wide 
strategic priorities for use of its resources abroad.
    Further, while DHS conducted a one-time exercise to assess 
the Department's international footprint, it has not 
established a routine process to continually assess the 
alignment between strategic goals and resource decisions. DHS 
also does not have comparable cost data for its programs abroad 
and does not have a standardized framework to capture these 
data to help informed resource decision making.
    Second, with regard to specific DHS programs abroad to 
target and inspect passengers and cargo before they depart for 
the United States, GAO has issued numerous reports on such 
programs. For example, with regard to one of ICE's overseas 
activities, the visa security program, we have reported on 
efforts to expand the program and address challenges and its 
operations.
    Under this program, ICE deploys personnel to certain U.S. 
embassies and consulates to assist the Department of State's 
consular officers with security reviews of visa applications, 
among other things. We have identified challenges in the visa 
security program, such as limited guidance regarding 
interactions between ICE officials and consular officers, lack 
of performance measures to accurately evaluate the program, and 
variation in the training of consular officers by the Visa 
Waiver Program agents from post to post.
    We have also found that ICE did not track information on 
the time ICE agents spent on non-Visa Waiver Program 
activities. We also identified gaps in ICE's plans to expand 
the program to additional diplomatic posts, noting that ICE's 
plans did not address all posts identified by the agency as 
being high-risk.
    With regard to CBP programs related to targeting and 
inspecting travelers before they board vessels bound for the 
United States, we have on-going work for the committee and the 
subcommittee reviewing these programs, including pre-clearance 
operations and the immigration advisory program. We will be 
reporting on results from our work in the future.
    Finally, with regard to targeting and inspecting maritime 
containerized cargo, GAO's work has addressed three of CBP's 
programs, including the Container Security Initiative, the 
Customs-Trade Partnership Against Terrorism program, or C-TPAT, 
and the Secure Freight Initiative.
    Through the Container Security Initiative, CBP targets 
U.S.-bound containerized cargo shipments and requests 
examinations of high-risk containers before they are loaded 
onto U.S.-bound vessels. We reported that CBP has made progress 
in implementing the program, but has not regularly assessed 
foreign ports for risk since 2005. CBP took steps to rank ports 
for risk in 2009, but did not use the results from that 
assessment to modify program locations.
    As part of our work, we used CBP's risk model and applied 
it to fiscal year 2012 cargo shipment data. Through this 
analysis, we found that the Container Security Initiative did 
not have a presence at about half of the foreign ports CBP 
considered high-risk and about one-fifth of the ports where CBP 
had a presence were lower-risk locations at the time of our 
review.
    In closing, we have made recommendations to DHS in all of 
these areas and others to help the Department and its 
components in their efforts to better manage, oversee, and 
assess their programs abroad. DHS has agreed with some of these 
recommendations and has actions planned or underway to address 
some of them. We will continue to monitor DHS' efforts in 
response to our recommendations.
    This ends my oral statement. I would be pleased to answer 
any questions Members may have.
    [The prepared statement of Ms. Gambler follows:]
                 Prepared Statement of Rebecca Gambler
                              June 2, 2015
                             gao highlights
    Highlights of GAO-15-668T, a testimony before the Subcommittee on 
Border and Maritime Security, Committee on Homeland Security, House of 
Representatives.
Why GAO Did This Study
    The National Strategy for Counterterrorism calls for a rapid and 
coordinated effort that uses U.S. Government resources to mitigate 
threats to homeland security. DHS contributes to the U.S. Government's 
efforts to combat terrorism and works to prevent inadmissible travelers 
and cargo from entering the United States. DHS's overseas efforts 
include ensuring visa security, inspecting passengers prior to boarding 
U.S.-bound flights, and identifying high-risk cargo shipments.
    This statement addresses: (1) The extent to which DHS has aligned 
resource use abroad with strategic priorities and (2) selected DHS 
programs abroad aimed at preventing high-risk travelers and maritime 
containerized cargo from entering the United States. This statement is 
based on prior products GAO issued from 2008 through January 2015, 
along with selected updates conducted in May 2015 to obtain information 
from DHS on actions it has taken to address prior GAO recommendations.
What GAO Recommends
    GAO previously made recommendations to DHS to inform its resource 
deployment abroad and strengthen screening and targeting programs. DHS 
agreed with GAO's recommendations to inform resource deployment abroad 
and has actions planned or underway to address them. DHS did not agree 
with some of GAO's recommendations related to VSP; GAO continues to 
maintain that all of these recommendations should be addressed.
 border security.--progress and challenges in dhs's efforts to address 
                 high-risk travelers and maritime cargo
What GAO Found
    In September 2013, GAO reported on actions the Department of 
Homeland Security (DHS) had taken to align its programs abroad with its 
resource use and with other U.S. Governmental strategic priorities. GAO 
found that DHS had taken actions to better align its resource use with 
its programs abroad consistent with requirements set forth in law. 
Specifically, from 2011 to early 2012, DHS conducted a one-time review 
of its international footprint--the complete set of DHS resources and 
efforts it has deployed abroad--and created a Department-wide 
international engagement plan. However, DHS had not established 
specific Department-wide strategic priorities for resource use abroad. 
Specifically, DHS: (1) Had not established Department-wide strategic 
priorities for international engagement, such as specific types of 
activities or target regions to further combating terrorism goals; (2) 
did not have a mechanism for monitoring alignment between resource 
deployment abroad and strategic priorities; and (3) did not have 
reliable, comparable cost data for its programs and activities abroad 
and had not established a standardized framework to capture these data. 
GAO recommended that DHS establish Department-wide strategic 
priorities, a mechanism to routinely monitor alignment between 
strategic priorities and resource deployment abroad, and reliable cost 
data to provide DHS with critical information to make informed resource 
deployment decisions. DHS concurred and, as of May 2015, has taken 
steps to implement GAO's recommendations, such as drafting an 
international engagement strategy to identify specific Department-wide 
priorities and establishing a common cost framework. DHS plans to 
finalize this strategy by early summer 2015 and use it a mechanism to 
facilitate additional footprint reviews in future budget years.
    DHS deploys multiple screening and targeting programs designed to 
help interdict high-risk travelers, such as potential terrorists, and 
otherwise inadmissible passengers and cargo shipments before they board 
U.S.-bound commercial vessels. For example, in March 2011, GAO reported 
on the Visa Security Program (VSP) through which DHS's U.S. Immigration 
and Customs Enforcement (ICE) deploys personnel to certain U.S. 
embassies and consulates to conduct security reviews of visa 
applications, among other things. GAO found that ICE had limited 
guidance for the program and could improve its program expansion 
planning. DHS concurred with GAO's recommendations to issue guidance 
and strengthen its planning and took steps to address them. GAO also 
found that DHS did not collect comprehensive data on all VSP 
performance measures and track the time officials spent on visa 
security activities; DHS did not concur with GAO's recommendations to 
address these limitations. Further, since 2008, GAO has reported on 
CBP's programs intended to secure the maritime global supply chain--the 
flow of goods from manufacturers to retailer--and cargo destined for 
the United States. For example, in September 2013, GAO found that CBP 
had not regularly assessed foreign ports for risks to since 2005. While 
CBP took steps to rank ports for risks in 2009, CBP did not use this 
information to modify where CBP staff were posted. DHS concurred with 
GAO's recommendation to periodically assess the supply chain security 
risks from foreign ports and has plans to conduct such assessments by 
the end of 2015.
 border security.--progress and challenges in dhs's efforts to address 
                 high-risk travelers and maritime cargo
    Chairman Miller, Ranking Member Vela, and Members of the 
subcommittee: I am pleased to be here today to discuss the Department 
of Homeland Security's (DHS) international programs and activities 
related to screening and inspecting passengers and maritime 
containerized cargo. The National Strategy for Counterterrorism calls 
for a rapid, coordinated, and effective effort that uses the resources 
of the entire Government to mitigate threats to National and homeland 
security.\1\ DHS--with its specific knowledge and skills in border and 
maritime security, immigration, and law enforcement, among other 
areas--contributes to the U.S. Government's efforts to combat terrorism 
and works to prevent inadmissible travelers and goods from entering the 
United States. In pursuit of this objective, DHS seeks to identify 
security vulnerabilities and interdict threats at the earliest possible 
point in the travel, trade, and immigration life cycles to make the 
Nation's physical borders the last, not the first, line of defense.
---------------------------------------------------------------------------
    \1\ The National Strategy for Counterterrorism supports the 
National Security Strategy, which lays out an approach for advancing 
American interests, including the security of the American people. The 
National Strategy for Counterterrorism sets out the approach to one of 
the President's top National security priorities--disrupting, 
dismantling, and eventually defeating al-Qaeda and its affiliates and 
adherents. It also acknowledges the need to counter other transnational 
terrorist networks. See White House, National Strategy for 
Counterterrorism (Washington, DC: June 2011) and White House, National 
Security Strategy (Washington, DC: May 2010).
---------------------------------------------------------------------------
    DHS's efforts to combat terrorism start abroad before travelers and 
cargo are approved for departure to the United States. Most notably, 
DHS deploys multiple inspection and targeting programs designed to help 
interdict high-risk travelers, such as potential terrorists, and 
otherwise inadmissible passengers and cargo before they board 
commercial aircraft and vessels bound for the United States. DHS also 
works alongside foreign government officials to support them in 
assessing their own security vulnerabilities at air and sea ports and 
strengthen their security infrastructure by providing training and 
conducting critical infrastructure assessments, among other things. 
DHS's Office of International Affairs (OIA) has primary responsibility 
for coordinating all aspects of the Department's international 
operations, and for developing, coordinating, and executing 
Departmental international policy, including negotiating agreements 
with other countries, developing policy and programs, interacting with 
foreign officials, and working with DHS personnel abroad.
    DHS components are generally responsible for making operational 
decisions, such as allocating resources and conducting activities that 
correspond to their particular missions to meet the Department's 
mission needs.
    Several DHS components are responsible for implementing programs 
aimed at screening, inspecting and, if warranted, preventing high-risk 
travelers and cargo from traveling to and entering the United States 
and are responsible for deploying staff to certain foreign air and sea 
ports and U.S. embassies to meet these objectives. U.S. Customs and 
Border Protection (CBP), the Federal agency with primary responsibility 
for securing U.S. borders, is authorized to vet, target, screen, and 
inspect travelers and cargo prior to entering the United States and, in 
certain circumstances and locations, before their transit to the United 
States. U.S. Immigration and Customs Enforcement (ICE), the agency with 
responsibility for enforcing U.S. customs and immigration laws, 
regulations, and policies, is authorized to investigate a wide range of 
domestic and international activities arising from the illegal movement 
of people and goods into, within, and out of the United States.\2\
---------------------------------------------------------------------------
    \2\ The U.S. Coast Guard, the Federal agency with primary 
responsibility for safeguarding U.S. maritime interests, is also 
responsible for ensuring the safety of the Nation's ports. The Coast 
Guard is the lead agency responsible for assessing the security of 
ports that ship goods to the United States, coordinating maritime 
information sharing efforts, and promoting domain awareness in the 
maritime environment. As of May 2015, the Coast Guard had 368 full-time 
equivalents stationed in 28 countries to assist with maritime security 
efforts. In addition, the Transportation Security Administration--the 
Federal agency with primary responsibility for securing civil aviation, 
including U.S.-bound flights--had 87 full-time equivalents stationed in 
22 countries to assist with aviation security efforts.
---------------------------------------------------------------------------
    This statement is based on related reports and testimonies we 
issued from 2008 through January 2015 that examined DHS's efforts to 
target, interdict, screen, and inspect passengers and maritime 
containerized cargo traveling to the United States (see app. I for a 
list of related GAO products), and discusses:
  <bullet> the extent to which DHS has aligned resource use abroad with 
        strategic priorities and
  <bullet> selected DHS programs abroad aimed at preventing high-risk 
        travelers and maritime cargo from entering the United States.
    This statement includes selected updates we conducted in May 2015 
on DHS's efforts to address our previous recommendations related to 
DHS's management and prioritization of its resources abroad, the visa 
security program, and efforts to protect the maritime global supply 
chain--the flow of goods from manufacturers to retailers--and 
containerized cargo. It also includes preliminary observations on CBP's 
international air passenger predeparture inspections efforts. We are 
currently reviewing these programs at the request of the full 
committee, its subcommittees, and other Members. Our reports 
incorporated information we obtained and analyzed from officials at 
various DHS components, including CBP and ICE, such as program plans, 
policies, and procedures. More detailed information about our scope and 
methodology can be found in our reports and testimonies. For the 
updates, we collected information from DHS on actions it has taken to 
address findings and recommendations made in prior reports on which 
this statement is based. We also reviewed recent DHS Office of 
Inspector General (OIG) reports on the Visa Security Program and DHS's 
efforts to target and vet foreign nationals.\3\ For our on-going work 
on CBP's international air passenger predeparture inspection efforts, 
we analyzed agency-wide policy guidelines and procedures for operating 
these programs overseas. We also interviewed CBP officials to obtain 
their views on CBP's roles and responsibilities for implementing and 
managing its predeparture inspections programs, as well as CBP's plans 
to expand these programs in the future. We conducted all of this work 
in accordance with generally accepted Government auditing standards. 
Those standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \3\ DHS OIG, The DHS Visa Security Program, OIG-14-137 (Washington, 
DC: Sept. 10, 2014) and DHS OIG, Information Sharing on Foreign 
Nationals: Overseas Screening, OIG-11-68 (Washington, DC: Apr. 7, 
2011).
---------------------------------------------------------------------------
   dhs has enhanced its resource alignment, but could better assure 
          resources deployed abroad support highest priorities
    In September 2013, we reported on actions DHS has taken to align 
its programs abroad with its resource use and with other U.S. 
Governmental strategic priorities. We found that DHS had taken actions 
toward increasing organizational and programmatic alignment for its 
resource use abroad consistent with requirements set forth in law.\4\ 
For example, we found that DHS had established an intradepartmental 
governance board to provide a formal organizational mechanism for DHS 
component heads and OIA to collaborate and coordinate crosscutting 
policy issues related to international engagement. We also found that 
DHS reviewed its international footprint--the complete set of resources 
and efforts DHS has deployed abroad--with the intention of enhancing 
organizational and programmatic alignment. This ``footprint review'' 
was led by OIA, in coordination with component heads, and it evaluated 
the placement of resources on the basis of DHS's strategic mission 
areas, cost, and potential for engagement with host nations.\5\ 
Furthermore, in March 2013, the Secretary of Homeland Security signed 
DHS's first International Engagement Plan to promote common 
international objectives and priorities across the Department. The plan 
maps key activities abroad to DHS's strategic mission areas, and 
includes specific strategies in separate international engagement plans 
for various regions of the world.
---------------------------------------------------------------------------
    \4\ GAO, Combating Terrorism: DHS Should Take Action to Better 
Ensure Resources Abroad Align with Priorities, GAO-13-681 (Washington, 
DC: Sept. 25, 2013). For example, every 4 years, DHS is required to 
conduct a comprehensive review--known as DHS's Quadrennial Homeland 
Security Review--of the homeland security strategy of the Nation, 
including recommendations regarding the long-term strategy and 
priorities of the Nation for homeland security and guidance on the 
programs, assets, capabilities, budget, policies, and authorities of 
the Department. See 6 U.S.C.  347.
    \5\ The Quadrennial Homeland Security Review identifies five 
strategic mission areas for DHS focus: (1) Preventing Terrorism and 
Enhancing Security, (2) Securing Our Borders, (3) Enforcing and 
Administering Immigration Laws, (4) Safeguarding and Securing 
Cyberspace, and (5) Ensuring Resilience to Disasters.
---------------------------------------------------------------------------
    Despite these efforts, we found that DHS could not provide overall 
assurance of alignment of its resource use abroad with Department-wide 
and Government-wide strategic priorities. Although DHS has a broad 
mission set and decision making about resource use abroad is 
decentralized to the components, we found that DHS had not established 
specific Department-wide strategic priorities--such as specific types 
of activities or target regions to further combating terrorism goals--
for resource use abroad to help promote organizational alignment in 
resource decision making. While DHS's International Engagement Plan 
linked DHS's strategic missions to the kinds of activities that DHS 
conducts abroad, we found that it did not establish specific priorities 
to help guide resource decision making. DHS officials from OIA and the 
Office of Counterterrorism Policy agreed that DHS's International 
Engagement Plan did not represent a clear priority focus on countries 
with factors that represented more immediate threats to the homeland 
and did not necessarily serve to identify a clear set of priorities and 
principles that would help to guide future resource decisions. To 
address these concerns we recommended that DHS establish specific 
Department-wide priorities for resources abroad. DHS concurred, and as 
of May 2015, has started to draft an international engagement strategy 
to identify specific Department-wide priorities. According to DHS 
officials, OIA hopes to use the plan to help inform the Department's 
fiscal year 2017 budget request and intends to finalize the plan no 
later than early summer 2015.
    We also found that although OIA conducted a one-time exercise from 
2011 to early 2012 to evaluate the Department's international footprint 
to try to bring it into better organizational and programmatic 
alignment, DHS had not established a routine or ingrained process that 
would continually assess the alignment between strategic goals and 
resource decisions. For example, we found each of the operational 
components that we interviewed, such as CBP and ICE, described 
different rationales and methods for deciding where and how many 
resources to deploy around the world. At the time of our review, OIA 
officials stated they had not devised an approach for implementing a 
routine, ingrained process with Department-wide methods and metrics, 
but officials agreed that such methods and metrics that were meaningful 
to all of the components would help provide a coherent strategic 
overlay to give the Department better assurance of alignment between 
resource use and strategic priorities. To address these concerns, we 
recommended that DHS establish a routine, institutionalized mechanism 
to ensure alignment of the Department's resource use abroad with the 
highest Department-wide and Government-wide strategic priorities. DHS 
concurred, and as of May 2015, OIA plans to use the international 
engagement plan as the foundation of a footprint review, starting with 
a specific international region, to identify opportunities to realign 
resources with priorities and to identify crosscutting management 
efficiencies for the Department's fiscal year 2017 budget request.
    In addition, in 2013, we found that DHS did not have comparable 
cost data for its programs and activities abroad and had not 
established a standardized framework to capture these data to help 
inform resource decision making and to achieve management efficiencies 
when addressing issues that are common across the department. We found 
that each of the components tracked its international expenditures 
differently, and according to OIA officials, the effort to collect 
comparable information that reliably informs management decision making 
had been challenging.\6\ According to OIA officials, a standardized 
reporting framework for the costs of conducting activities abroad--for 
example, salaries, housing, and fees paid to embassies to cover certain 
administrative and security costs--across the Department could enable 
OIA to identify best practices that could lead to cost savings in 
international deployments and enhance the ability to assess the 
outcomes and cost-effectiveness of programs and activities carried out 
abroad. We recommended that DHS establish a common reporting framework 
to allow for the collection of reliable, comparable Department-wide 
cost data for resource use abroad. DHS concurred, and, as of May 2015, 
had established a common cost framework.
---------------------------------------------------------------------------
    \6\ For our September 2013 report, we attempted to produce cost 
data for international expenditures. Although we determined that the 
data were sufficiently reliable to report a general estimate of 
expenditures for programs and activities abroad, in many cases it took 
months for DHS to produce the expenditure data and some components 
reported to us that meeting the request was difficult. After attempting 
to collect separate expenditure data for training and technical 
assistance expenditures, we ultimately determined that sufficiently 
reliable data were not available.
---------------------------------------------------------------------------
     dhs carries out activities abroad that help prevent high-risk 
 passengers and cargo from traveling to and entering the united states
    DHS conducts various programs and mission activities abroad to 
prevent people and cargo posing a threat to the United States from 
reaching the homeland. These include, among other things, efforts to 
ensure visa security, inspect international passengers prior to 
boarding a flight bound for the United States, and identify and target 
high-risk maritime containerized cargo shipments before being loaded 
onto U.S.-bound vessels. According to DHS's Office of Operations 
Coordination and Planning data, as of May 2015, DHS OIA and DHS 
operational components had approximately 1,800 full-time equivalents 
(FTE) in almost 80 countries to help combat terrorism and achieve other 
mission goals.\7\ CBP had 801 FTE employees stationed in 43 countries 
and ICE had 380 FTEs in 45 countries.
---------------------------------------------------------------------------
    \7\ DHS's Office of Operations Coordination and Planning maintains 
the Overseas Personnel and Activities Locator, which tracks all DHS 
personnel deployed abroad. The locator is updated monthly with self-
reported data from the components, which may capture some personnel on 
travel duty in additional to permanently deployed FTEs.
---------------------------------------------------------------------------
    In September 2013, we reported that DHS seeks to identify security 
vulnerabilities and interdict threats at the earliest possible point in 
the travel, trade, and immigration lifecycles, such as prior to visa 
issuance.\8\ CBP, which operates the National Targeting Center (NTC), 
supports DHS's efforts by providing tactical targeting and analytical 
research of people and goods prior to their departure to the United 
States.\9\ NTC monitors the movement of potential terrorists and 
containerized cargo and works to prevent them and any weapons of mass 
destruction or othercontraband from entering the country through land, 
air, and sea ports. According to CBP program officials assigned to NTC, 
NTC staff analyze various sources of Government data, including lists 
of known terrorists; data on foreign visitors whose official 
authorization permitting entry into and travel within the United States 
has elapsed; passport, criminal, and other law enforcement information; 
immigration records; and cargo manifest data. Through CBP's Automated 
Targeting System (ATS), CBP officers identify and target passengers and 
cargo container shipments for inspection.\10\ Among other things, ATS 
uses a set of rules that assess different factors in the data to 
determine the risk level of a passenger or shipment. According to CBP 
program officials assigned to NTC, CBP makes available information from 
its databases and ATS to ICE and CBP officials deployed abroad, among 
others, to assist with in carrying out their respective missions as 
they relate to passengers and cargo, and to reduce the vulnerabilities 
associated with the global supply chain.
---------------------------------------------------------------------------
    \8\ GAO-13-681.
    \9\ The NTC was established on October 22, 2001, under the 
Department of the Treasury's U.S. Customs Service and began operations 
in November 2001. NTC subsequently became part of CBP with the 
establishment of DHS pursuant to the Homeland Security Act of 2002. In 
addition to CBP personnel, the NTC is staffed by the U.S. Coast Guard, 
ICE, the Federal Air Marshal Service, and the Transportation Security 
Administration.
    \10\ ATS is an enforcement and decision support system that 
compares passenger and cargo manifest information against intelligence 
and other law enforcement data, and consolidates data from various 
sources to create a single, comprehensive record for each U.S.-bound 
passenger and shipment.
---------------------------------------------------------------------------
Visa Security
    In March 2011, we reported on ICE's efforts to strengthen visa 
issuance procedures.\11\ We found that ICE, through the Visa Security 
Program (VSP), works to prevent terrorists and otherwise inadmissible 
travelers from attempting to enter the United States by screening visa 
applicants before the travel process begins. Specifically, we reported 
that VSP is intended to prevent terrorists, criminals, and other 
ineligible applicants from receiving visas. Under VSP, ICE deploys 
personnel to certain U.S. embassies and consulates to assist the 
Department of State's consular officers with security reviews of visa 
applications and investigations of passport and visa fraud, among other 
things.\12\ ICE is also responsible for training consular officers 
regarding specific security threats relating to the adjudication of 
individual visa applications or classes of applications. As of May 
2015, ICE reported that it had established 21 visa security units in 15 
countries. When reviewing applications for visas under VSP, ICE agents 
screen applicant information against CBP immigration data and ATS 
targeting and intelligence data to identify applicants that potentially 
match records of individuals who are known or suspected threats to the 
United States or have immigration violations or derogatory information 
related to their criminal histories.\13\
---------------------------------------------------------------------------
    \11\ GAO, Border Security: DHS's Visa Security Program Needs to 
Improve Performance Evaluation and Better Address Visa Risk Worldwide, 
GAO-11-315 (Washington, DC: Mar. 31, 2011).
    \12\ See 6 U.S.C.  236.
    \13\ Specifically, ICE uses data from TECS (not an acronym), which 
is an automated enforcement and antiterrorism database maintained by 
CBP that provides information for law enforcement and border security 
purposes, and can exchange information automatically with other U.S. 
Government systems.
---------------------------------------------------------------------------
    In March 2011, we reported, among other things, on DHS's efforts to 
expand VSP and challenges to VSP operations overseas.\14\ In general, 
we found that ICE and the Department of State had limited guidance 
regarding interactions between consular officers and ICE officials for 
the screening and issuance of visas, and that training of consular 
officers by VSP agents varied from post to post, with some consular 
officers at some posts receiving no training. We also found that ICE 
lacked performance measures to accurately evaluate VSP mission 
objectives. Moreover, we found that VSP agents performed various 
investigative and administrative functions beyond their visa security 
responsibilities, a fact that at times slowed or limited visa security 
activities, and ICE did not track this information in the VSP tracking 
system, making it unable to identify the time spent on investigative 
and administrative functions. Finally, we found that ICE's plans to 
expand VSP did not cover 11 of 20 additional diplomatic posts 
identified by ICE as high-risk.
---------------------------------------------------------------------------
    \14\ GAO-11-315.
---------------------------------------------------------------------------
    We made several recommendations to help DHS better manage VSP at 
posts overseas. First, we recommended that DHS issue guidance requiring 
ICE to provide training for consular officers. DHS concurred and has 
issued guidance to enhance the training of consular officers by VSP 
offices abroad. Second, we recommended that DHS ensure that ICE 
collects reliable data to allow ICE to accurately evaluate VSP 
performance and report to Congress on progress toward the VSP mission 
objectives. DHS stated that the VSP captured all the required 
performance metrics. However, as we reported, we determined on the 
basis of our analysis that ICE was collecting some data on the required 
performance measures, but that the data were not sufficient to 
accurately demonstrate the progress made toward the program's stated 
objectives. We continue to believe that without collecting 
comprehensive data on the performance measures identified by ICE, DHS 
cannot accurately demonstrate progress of VSP in enhancing National 
security. Third, we recommended that DHS develop a mechanism to track 
the amount of time spent by ICE on visa security activities and other 
investigations as part of VSP, in order to determine appropriate 
staffing levels and resource needs for VSP operations at posts 
overseas. DHS did not concur with this recommendation and has taken no 
action to implement it. DHS stated that ICE tracks case investigation 
hours through its case management system, and that adding the metric to 
the VSP tracking system would be redundant. However, we found, 
according to ICE documentation, that ICE cannot accurately determine 
the amount of time that VSP agents spend on investigative and visa 
security activities because ICE does not distinguish between the hours 
logged by VSP agents and hours logged by other ICE officials at posts 
abroad and that ICE does not maintain accurate data on the time VSP 
agents spend on visa security activities at posts. Without accurate 
data to determine the amount of time VSP agents spend on the visa 
security activities, ICE is not well-positioned to determine whether 
the current allocations of staffing and resources at posts are adequate 
to carry out the visa security reviews and fulfill VSP's objectives. 
Thus, we continue to believe our recommendation has merit, and should 
be fully implemented. Lastly, we recommended that DHS develop a plan to 
provide VSP coverage at high-risk posts where the possibility of 
deploying agents may be limited. DHS concurred, and ICE reported that 
it has enhanced its information technology systems so that screening 
and reviewing applicants at all posts world-wide will now be feasible.
Passenger Predeparture Inspections
    CBP's efforts to identify high-risk and potentially inadmissible 
travelers begin before travelers enter a port of embarkation and 
continue between ports of entry until CBP officers officially approve 
or deny travelers' entry into the United States. Specifically, CBP, 
through its predeparture inspection programs, screens and inspects 
travelers destined for the United States while they are still overseas. 
These programs utilize established relationships with host countries 
and air carriers to work to prevent passengers who may pose a security 
threat, have fraudulent documents, or who are or may be otherwise 
inadmissible from boarding flights to the United States. Specifically, 
CBP operates three pre-departure inspection programs--preclearance; the 
Immigration Advisory Program (IAP) and Joint Security Program (JSP); 
and the regional carrier liaison groups (RCLG). According to senior CBP 
officials responsible for overseeing predeparture inspection programs, 
the United States intends to expand these programs to additional 
locations. As of May 2015, DHS and the Department of State are 
continuing to work together to determine which countries the United 
States might consider for expansion. We are currently reviewing these 
programs at the request of the full committee, its subcommittees, and 
other Members. We anticipate reporting on the results of our analyses 
by early 2016. Preliminary observations from our on-going work are as 
follows.
    Preclearance.--CBP pre-clearance locations serve as ports of entry 
into the United States where CBP Officers are authorized and empowered 
to make admissibility decisions about passengers and their accompanying 
goods or baggage destined for the United States.\15\ According to CBP 
program documents and officials, an inspection at a pre-clearance 
location is essentially the same inspection an individual would undergo 
at a port of entry in the United States, and CBP Officers conducting 
pre-clearance inspections exercise identical authority as CBP Officers 
at domestic ports of entry to approve or deny admission into the United 
States. Once precleared, a passenger is admitted to the United States 
and will not require additional CBP inspection upon arrival. However, 
according to CBP's deputy director of pre-clearance operations, CBP 
Officers retain the authority to inspect these travelers and their 
accompanying goods or baggage after arriving in the United States 
should inspection be warranted.\16\ According to CBP program 
documentation, as of May 2015, CBP has 568 staff located in pre-
clearance facilities in 15 locations in six countries.\17\
---------------------------------------------------------------------------
    \15\ See 8 U.S.C.  1103(a)(7), 19 U.S.C.  1629. See also 8 C.F.R. 
 235.1, 235.5; 19 C.F.R.  148.22, 162.6, 162.8.
    \16\ In addition, CBP program documents explain that flights 
arriving in the United States from pre-clearance airports are also 
permitted to land and disembark at domestic terminals wherein such 
passengers are not required to undergo subsequent Transportation 
Security Administration screening measures if connecting to another 
flight.
    \17\ CBP has pre-clearance locations in Aruba, the Bahamas (Nassau, 
Freeport), Bermuda, Canada (Calgary, Edmonton, Halifax, Montreal, 
Ottawa, Vancouver, Victoria, and Winnipeg), Ireland (Dublin, Shannon), 
and the United Arab Emirates (Abu Dhabi). CBP's pre-clearance in 
Victoria, Canada only processes maritime passengers.
---------------------------------------------------------------------------
    Immigration Advisory Program and Joint Security Program.--According 
to CBP program documents and officials we interviewed, under both IAP 
and JSP, CBP partners with foreign governments and air carriers to 
identify and prevent high-risk travelers, travelers without proper 
documents, and other potentially inadmissible travelers from boarding 
U.S.-bound flights.\18\ According to CBP program documentation, as of 
May 15, 2015, CBP has 41 IAP and 11 JSP staff in 11 locations around 
the world. IAP officers operate primarily at airports in Western 
Europe, and have access to the sterile and boarding areas of the host 
airports to question passengers and review their travel documents.\19\ 
Building on the IAP concept, CBP launched JSP in two locations in 2009. 
According to a senior CBP official responsible for overseeing IAP, 
under JSP agreements with these host governments, CBP Officers partner 
with the host country law enforcement to identify air passengers linked 
to terrorism, narcotics, weapons, and currency smuggling. In addition, 
he stated that while CBP Officers at these locations do not have 
unescorted access to the host airport's sterile area and must be 
accompanied by local law enforcement personnel, they do have the 
ability to question passengers and review their travel documents. 
Further, both IAP and JSP officers themselves may not exercise U.S. 
immigrations and customs authorities at the airport as CBP officers 
stationed at pre-clearance locations do. However, a senior IAP and a 
JSP official stated that officers work closely with the air carriers 
and local law enforcement to identify fraudulent passports and visas 
and other factors that may render a passenger inadmissible to the 
United States and support a no-board recommendation to the commercial 
air carrier--i.e., recommending that the carrier not transport the 
passenger because the passenger will likely be deemed inadmissible upon 
arrival in the United States. Moreover, these officials stated that CBP 
Officers at both IAP and JSP locations can conduct queries of CBP 
databases and ATS targeting information and coordinate with the NTC to 
confirm whether a traveler is a threat to the United States or 
otherwise inadmissible. At JSP locations, CBP Officers use ATS 
targeting information in conjunction with local law enforcement and 
host government data to identify threats, question passengers, and 
review travel documents for all travelers arriving at and departing the 
host country (including U.S.-bound and foreign-to-foreign commercial 
flights).
---------------------------------------------------------------------------
    \18\ See, e.g., 8 U.S.C.  1103(a)(7).
    \19\ The sterile area of an airport is, in general, the area beyond 
a security screening checkpoint that provides passengers access to 
boarding aircraft and to which access is generally controlled by the 
Transportation Security Administration in the United States or host 
country security at a foreign airport through the screening of persons 
and property. See, e.g., 49 C.F.R.  1520.5.
---------------------------------------------------------------------------
    Regional Carrier Liaison Groups.--According to CBP officials at 
NTC, Regional Carrier Liaison Groups (RCLGs) are to assist commercial 
carriers with questions related to document fraud and inadmissibility. 
As of May 2015, CBP has RCLGs in New York, Miami, and Honolulu. 
According to CBP programs officials at the NTC, each of these locations 
assists air carriers in designated parts of the world, and also assists 
CBP Officers at designated pre-clearance locations make admissibility 
decisions. According to CBP program officials assigned to NTC, RCLGs 
use Government databases, immigration data, other NTC resources, and 
ATS to provide technical real-time assistance to air carriers through 
their phone center, and can make no-board recommendations directly to 
the air carriers. In addition, according to CBP documentation, RCLGs 
are to provide training on U.S. entry requirements, passenger 
assessment, and fraudulent document detection, among other things, to 
air carriers at U.S. ports of entry and at airports abroad.
Security of Maritime Cargo
    DHS plays a large role in ensuring the safety of maritime 
containerized cargo and vessels bound for the United States. Ports are 
critical gateways for the movement of commerce through the global 
supply chain. The facilities, vessels, and infrastructure within ports, 
and the cargo passing through them, all have vulnerabilities that 
terrorists could exploit. While there have been no known incidents of 
containers being used for terrorism-related purposes, criminals have 
exploited containers for other illegal purposes, such as smuggling 
weapons, people, and illicit substances. Within DHS, CBP is primarily 
responsible for maritime supply chain security and the screening of 
high-risk maritime cargo. Specifically, CBP is focused on the security 
of the cargo shipped to the United States from foreign ports. From 2008 
to January 2015, we reported on DHS's efforts to assess potentially 
risky foreign ports, and target, screen, and interdict vessels and 
cargo container shipments destined for the United States.\20\ CBP 
operates three programs intended to secure the maritime global supply 
chain--the flow of goods from manufacturers to retailer--and cargo 
destined for the United States--the Container Security Initiative 
(CSI), the Customs-Trade Partnership Against Terrorism (CTPAT), and the 
Secure Freight Initiative (SFI).
---------------------------------------------------------------------------
    \20\ GAO, Supply Chain Security: CBP Needs to Enhance Its Guidance 
and Oversight of High-Risk Maritime Cargo Shipments, GAO-15-294 
(Washington, DC: Jan. 27, 2015); Maritime Security: Progress and 
Challenges with Selected Port Security Programs, GAO-14-636T. 
(Washington, DC: June 4, 2014); Supply Chain Security: DHS Could 
Improve Cargo Security by Periodically Assessing Risks from Foreign 
Ports, GAO-13-764 (Washington, DC: Sept. 16, 2013); Supply Chain 
Security: Container Security Programs Have Matured, but Uncertainty 
Persists over the Future of 100 Percent Scanning, GAO-12-422T 
(Washington, DC: Feb. 7, 2012); Maritime Security: Progress and 
Challenges 10 Years After the Maritime Transportation Security Act, 
GAO-12-1009T (Washington, DC: Sept. 11, 2012); Supply Chain Security: 
Feasibility and Cost-Benefit Analysis Would Assist DHS and Congress in 
Assessing and Implementing the Requirement to Scan 100 Percent of U.S.-
Bound Containers, GAO-10-12 (Washington, DC: Oct. 30, 2009); and Supply 
Chain Security: U.S. Customs and Border Protection Has Enhanced Its 
Partnership with Import Trade Sectors, but Challenges Remain in 
Verifying Security Practices, GAO-08-240 (Washington, DC: Apr. 25, 
2008).
---------------------------------------------------------------------------
    Container Security Initiative.--CSI is a bilateral Government 
partnership program operated by CBP that aims to identify and examine 
U.S.-bound cargo container shipments that are at risk of containing 
weapons of mass destruction or other terrorist contraband.\21\ As part 
of the program, CBP Officers are stationed at select foreign seaports 
and review information about U.S.-bound containerized cargo shipments. 
CBP uses ATS to target U.S.-bound container shipments and request 
examinations of high-risk containers before they are loaded onto U.S.-
bound vessels. CBP has CSI staff located at 58 foreign ports. In 
September 2013, we reported on CBP's progress in implementing CSI.\22\ 
Specifically, we found that CBP had not regularly assessed foreign 
ports for risks to cargo under CSI since 2005. While CBP took steps to 
rank ports for risks in 2009, we found that CBP did not use results 
from this assessment to make modifications to the locations where CSI 
staff are posted because of budget cuts. By applying CBP's risk model 
to fiscal year 2012 cargo shipment data, we found that CSI did not have 
a presence at about half of the foreign ports CBP considered high-risk, 
and about one-fifth of the existing CSI ports were at lower-risk 
locations. We recommended that DHS periodically assess the supply chain 
security risks from all foreign ports that ship cargo to the United 
States and use the results of these risk assessments to inform any 
future expansion of CSI to additional locations and determine whether 
changes need to be made to existing CSI ports and make adjustments as 
appropriate and feasible. DHS concurred with our recommendation, and in 
February 2015, CBP officials told us that the agency plans to conduct 
periodic assessments of the supply chain security risks from all ports 
that ship cargo to the United States.\23\ According to CBP officials, 
CBP plans to complete the necessary steps to implement this 
recommendation by the end of December 2015.
---------------------------------------------------------------------------
    \21\ See 6 U.S.C.  945.
    \22\ GAO-13-764.
    \23\ CBP plans to use two data sources to complete these 
assessments. The first is to complete a foreign port risk assessment by 
using an existing country risk assessment developed by a third party. 
In addition, the CBP Office of Intelligence and Investigative Liaison 
is in the process of developing a World Risk Matrix. CBP officials plan 
to use both the risk assessment and the World Risk Matrix to compile a 
final risk assessment of all foreign ports that ship cargo to the 
United States.
---------------------------------------------------------------------------
    Customs-Trade Partnership Against Terrorism.--C-TPAT, operated by 
CBP, was established through the Security and Accountability for Every 
Port (or SAFE Port) Act of 2006.\24\ C-TPAT is a voluntary public-
private-sector partnership with private stakeholders in the 
international trade community that aims to secure the flow of maritime 
cargo bound for the United States. Under C-TPAT, CBP officials work 
with member private companies to review the security of their 
international supply chains and improve the security of their cargo 
shipments to the United States. In return, C-TPAT members receive 
various incentives to facilitate the flow of legitimate cargo, such as 
reduced scrutiny of their shipments. In 2008, we reported, among other 
things, that CBP took steps to improve the security validation process 
for C-TPAT applicants and implemented numerous actions to address C-
TPAT management and staffing challenges.\25\ However, we found 
challenges with the technology CBP used to help ensure that validation 
information is consistently collected, documented, and uniformly 
applied to decisions regarding the awarding of benefits to C-TPAT 
members, and that CBP lacked a systematic process to ensure that 
members take appropriate actions in response to security validation 
findings. We also found that C-TPAT's performance measures were 
insufficient to assess the impact of C-TPAT on increasing supply chain 
security. We made recommendations to CBP to strengthen C-TPAT program 
management and oversight. Specifically, we recommended, among other 
things, that CBP document key data elements needed to track compliance 
with the SAFE Port Act and other CBP internal requirements and to 
identify and pursue opportunities in information collected during C-
TPAT member processing activities that may provide direction for 
developing performance measures of enhanced supply chain security. CBP 
has since implemented these recommendations by, for example, creating 
an automated platform to track and capture the content and 
communication between CBP and C-TPAT members to ensure that C-TPAT 
validation report recommendations are implemented and identifying 
analytical tools and data for trend analysis to better assess C-TPAT's 
impact on the supply chain.
---------------------------------------------------------------------------
    \24\ See Pub. L. No. 109-347, 120 Stat. 1884 (2006).
    \25\ GAO-08-240.
---------------------------------------------------------------------------
    Secure Freight Initiative.--The Secure Freight Initiative (SFI) 
started as a pilot program among CBP, the Department of Energy, and the 
Department of State intended to test the feasibility of using radiation 
detection and nonintrusive imaging equipment to scan 100 percent of 
cargo containers bound for the United States before they are loaded 
onto vessels at foreign seaports.\26\ In 2009, we reported that 
scanning operations at the initial SFI ports encountered a number of 
challenges--including safety concerns, logistical problems with 
containers transferred from rail or other vessels, scanning equipment 
breakdowns, and poor-quality scan images.\27\ Both CBP and GAO had 
previously identified many of these challenges, and CBP officials were 
concerned that they and the participating ports could not overcome 
them. Senior DHS and CBP officials acknowledged that most, if not all 
foreign ports, would not be able to meet the July 2012 target date for 
scanning all U.S.-bound cargo, and DHS would need to issue extensions 
to such ports to allow the continued flow of commerce in order to 
remain in compliance with relevant statutory requirements. We 
recommended that DHS, in consultation with the Secretaries of Energy 
and State, develop, among other things, more comprehensive cost 
estimates, conduct cost-benefit and feasibility analyses, and provide 
the results to Congress. CBP stated it does not plan to develop 
comprehensive cost estimates since SFI has been reduced to one port, 
and CBP has no funds to develop such cost estimates. We previously 
reported that, in May 2014, the Secretary of Homeland Security stated 
that ``DHS's ability to fully comply with this unfunded mandate of 100 
percent scanning, even in [the] long term, is highly improbable, hugely 
expensive, and in our judgment, not the best use of taxpayer resources 
to meet this country's port security and homeland security needs.'' The 
Secretary also stated that he instructed DHS, including CBP, to do a 
better job of meeting the underlying objectives of the 100 percent 
scanning requirement by, in part, refining aspects of CBP's layered 
security strategy.\28\
---------------------------------------------------------------------------
    \26\ In response to the SAFE Port Act requirement to implement a 
pilot program to determine the feasibility of scanning 100 percent of 
U.S.-bound containers with both radiation portal monitors and 
nonintrusive imaging equipment, CBP, the State Department, and the 
Department of Energy jointly announced the formation of SFI in December 
2006 as an effort to build upon existing container security measures by 
enhancing the U.S. Government's ability to ensure containers are 
scanned for nuclear and radiological material overseas and better 
assess the risk of inbound containers. See 6 U.S.C.  981-82. The 
Implementing Recommendations of the 9/11 Commission Act of 2007 
subsequently imposed deadlines for achieving full-scale implementation 
of the 100 percent scanning requirement. See Pub. L. No. 110-53,  
1701(a), 121 Stat. 266, 489-91 (2007); 6 U.S.C.  982(b).
    \27\ GAO-10-12.
    \28\ GAO-15-294.
---------------------------------------------------------------------------
    In February 2012, we reported that the scanning challenges 
continued, and CBP achieved 100 percent scanning of U.S.-bound cargo 
containers at only one foreign pilot port where it was being 
attempted.\29\ The Implementing Recommendations of the 9/11 Commission 
Act of 2007 (9/11 Act), enacted in 2007, required, among other things, 
that by July 2012, 100 percent of U.S.-bound cargo containers be 
scanned at foreign ports with both radiation detection and non-
intrusive inspection equipment before being placed on U.S.-bound 
vessels.\30\ In May 2012, the then-Secretary of Homeland Security 
authorized a 2-year extension (until July 2014) of the deadline for 
implementing the requirement.\31\ Then, in May 2014, the current 
Secretary of Homeland Security renewed the extension (until July 2016).
---------------------------------------------------------------------------
    \29\ GAO-12-422T.
    \30\ See 6 U.S.C.  982(b).
    \31\ Pursuant to the 9/11 Commission Act, the deadline for 100 
percent scanning of containers loaded in a port or ports may be 
extended in 2-year increments if Congress receives certification from 
DHS that at least two out of a list of specific conditions exist. Among 
others, these conditions include the following: Adequate scanning 
equipment is not available or cannot be integrated with existing 
systems, a port does not have the physical characteristics to install 
the equipment, or use of the equipment will significantly affect trade 
capacity and the flow of cargo. See 6 U.S.C.  982(b)(4).
---------------------------------------------------------------------------
    In addition to the CBP supply chain security programs described 
above, we have also reported on CBP's targeting of high-risk maritime 
containerized cargo shipments. Specifically, in January 2015, we found, 
among other things, that CBP did not have accurate data on the number 
and disposition of each high-risk maritime cargo shipment scheduled to 
arrive in the United States.\32\ On the basis of our analyses of CBP 
data for fiscal years 2009 through 2013, we found that on average each 
year, approximately 11.6 million maritime cargo container shipments 
arrived in the United States, and less than 1 percent of those 
shipments were determined by ATS to be high-risk. CBP targeters at 
advance targeting units--responsible for reviewing shipments arriving 
at ports within their respective regions--can waive an examination if 
they determine through research that: (1) The shipment falls within a 
predetermined category (standard exception), or (2) they can articulate 
why the shipment should not be considered high-risk (articulable 
reason), such as an error in the shipment's data. For example, a 
shipment could be identified as high-risk because it is associated with 
a shipper on a terrorist watch list, but through further research, CBP 
officials determine the shipper is not a true match to the terrorist 
watch list and, therefore, the shipment should not be considered high-
risk. We found that CBP examined the vast majority of high-risk 
shipments, but CBP's disposition data were not accurate because of 
various factors--such as the inclusion of shipments that were never 
sent to the United States--and our analyses found that CBP's data 
overstated the number of high-risk shipments, including those not 
examined/not waived under CBP policy. We also found that when 
determining the disposition of high-risk shipments, CBP's targeting 
units were inconsistently applying criteria to make some waiver 
decisions and were also incorrectly documenting the reasons for 
waivers.
---------------------------------------------------------------------------
    \32\ GAO-15-294.
---------------------------------------------------------------------------
    On the basis of our review of CBP policy and visits to selected 
targeting units, we determined that CBP has not established uniform 
definitions for standard exception waiver categories, some CBP 
officials were unaware of existing waiver guidance for articulable 
reason waivers, and some CBP targeters across the targeting units we 
visited were inconsistently and inaccurately recording waiver reasons 
in ATS. As a result, we concluded that CBP could not accurately 
determine the extent to which standard exception waivers were used 
consistently or whether waivers issued for articulable reasons were 
being used judiciously, as required by policy. We recommended, among 
other things, that CBP define standard exception waiver categories and 
disseminate policy on documenting articulable reason waivers. Further, 
we recommended that CBP enhance its methodology for selecting shipments 
for self-inspections and change the way it calculates the compliance 
rate. DHS concurred with our recommendations and has actions planned or 
underway to address them. For example, CBP plans to, among other 
things, draft an updated, comprehensive National Cargo Targeting 
Policy, which is to include definitions for each of the standard 
exception waiver categories and develop an enhanced methodology for 
selecting shipment samples used for self-inspection to increase the 
likelihood that any potential deficiencies will be identified so that 
corrective actions can be taken to reduce errors in the future. 
According to CBP officials, CBP is working to implement the 
recommendations, and is to provide us with an update on the 
implementation status by June 5, 2015.
    Chairman Miller, Ranking Member Vela, and Members of the 
subcommittee this concludes my prepared statement. I will be happy to 
answer any questions you may have.

    Mrs. Miller. Thank you.
    Thank you all very much.
    I think I will start with Mr. Wagner because I want to talk 
a little bit about this preclearance. I was just looking at 
this chart that I have in front of me. But, anyway, it shows 
the facilities that we currently have and then what is 
proposed.
    It is interesting because--I don't want to use the term 
``quaint,'' but it certainly is indicative of how our world has 
changed since 9/11 because what we currently have--most of them 
are all in Canada, obviously, our largest trading partner, and 
then, from a tourism standpoint, Bahamas, Bermuda, Aruba, a 
couple in Ireland. Then all of a sudden we go to the UAE, which 
just seems--compared to the other ones.
    Now, as the Secretary has announced, you have got 
negotiations with these 9 other countries. I guess I would just 
ask you--in fact, I was taking a note when you were saying 
currently about 15 percent of everybody that is coming in is 
going through preclearance. So you have about 15 spots. So it 
is approximately--I don't know what that--I will do the math on 
that. But if it is a percent per spot--I am not sure how that 
all works.
    But after the 10 new ones in the 9 different countries, do 
you have any estimate of what percentage of inbound travelers 
into the United States would be precleared before they board an 
aircraft?
    Mr. Wagner. Yes. It would bring the total up to about 36 
percent of all travelers to the United States.
    Mrs. Miller. So as you look at the 10 that you are 
proposing here in the 9 different countries, what is really--I 
mean, is the driver principally security and/or trade, look at 
both things equally? How do you give the weight there?
    Mr. Wagner. It is both. We looked at a couple of broad 
categories of security, facilitation, feasibility, and 
strategic impact.
    So under the security piece, you know, we looked at the 
number of terrorist watch list hits coming through that 
airport--or originating in that airport. We looked at the 
number of National security concerns identified through our 
National Targeting Center.
    Then we balanced it against similar facilitation and 
workload measures, the number of passengers, the impact to wait 
times in the United States, the number of what we call 
secondary referrals and enforcement actions originating out of 
these airports.
    Then we also had to balance it against a feasibility score 
and a strategic impact in that did we have a willing partner 
here, did we have an airport that would build the type of 
facility we would need, make that type of investment, did we 
have a government that would agree to negotiate the terms and 
the authorities for us to operate in uniform with authorities 
on their soil.
    So it is a mixture of all these different factors to try to 
come across just a good balance and then also looking at the 
competitive balance of the U.S. airline carriers.
    Like you mentioned, we heard loud and clear from the U.S. 
carriers and other stakeholders, and we consulted extensively 
with a lot of those stakeholders to make sure these locations 
represent a competitive balance between the U.S. carriers and 
their strategic alliances so we are not picking winners and 
losers between the different carriers.
    Mrs. Miller. You know, I do recall during the whole 
beginning of the pre-clearance at Abu Dhabi, when you had the 
country-level agreement there, part of what was discussed at 
that time was that the next one would be Dubai. Now, Dubai is 
not on this list. I am not advocating--I am not sure if that is 
what we should be doing, but that was a big part of the 
discussion with the Congress.
    Mr. Wagner. Correct.
    Mrs. Miller. Do you have any comment on that?
    Mr. Wagner. Yes. Dubai remains a priority location for us. 
It is not on the list because we already have an agreement with 
the UAE government. So we would not need to renegotiate the 
principles of that.
    But it remains a priority location for us in terms of 
security and facilitation. There is a growing volume of 
travelers coming to the United States. We have two U.S. 
carriers, Delta and United, that fly out of there.
    But we continue discussions with the Dubai airport 
authorities, looking at plans for the new airport that they are 
building and then looking at the technical specifications at 
their existing airport in Dubai.
    We anticipate having further discussions this summer with 
them. I think this is consistent with some of the recent 
statements made by the Dubai authorities. This very much 
remains a priority for us.
    Mrs. Miller. Okay. I appreciate that.
    Now to Mr. Bersin and Mr. Kubiak. As we are all painfully 
aware, particularly last year we had a humanitarian crisis at 
the Southern Border with the UACs that were coming across, and 
many of us made a lot of noise here about whether or not we 
ought to be reducing or eliminating foreign aid, particularly 
to the three countries in the Centrals that were responsible 
for the greatest percentage of that population of these poor 
children that were coming here or whether or not we even should 
revisit some of our trade agreements, like CAFTA, et cetera. 
There was a lot of talk about what we should do. But I think 
you mentioned here Central America, where you were using the 
vetted units in El Salvador, Guatemala, Honduras, et cetera.
    I am just wondering, is that a reaction from our Government 
and those governments because of the UACs? If so, are you 
having any good, positive outcome of all of that of, hopefully, 
stopping that kind of activity before they start coming up 
through Mexico?
    Mr. Bersin. As part of the reaction to the engagement that 
we have had, the transnational criminal investigative units 
that Mr. Kubiak can go into much greater detail on have been a 
first-rate element in our approach with the governments of 
Guatemala, Salvador and Honduras to take on the human 
trafficking groups as well as other elements of transnational 
crime.
    So, yes, I mean, the willingness of Guatemala to increase 
the units there, the willingness of the government of Honduras 
to continue the transnational criminal investigative units, and 
the similar decision by the government of El Salvador all point 
to their recognition of the utility.
    Mr. Kubiak. Chairman Miller, as you know, the Department 
really rallied all of its resources to address that threat 
after last summer and it took steps in a number of fronts to 
address kind-of the human smuggling activity throughout the 
entire corridor of the Americas.
    The TCIUs, to start with your question, were a fundamental 
component of gathering intelligence related to what is causing 
migrants to leave their countries, what are the factors within 
those countries that are there, how they are getting from one 
location to another, and then, subsequently, how do we disrupt 
and identify the criminal networks associated in that activity.
    So they weren't specifically formed for that purpose, but 
they were able to be applied to that purpose, and have had a 
fundamental role in the year since that activity and have given 
us a much better picture of the reasons that people are leaving 
the countries, but, also, more importantly to our line of work, 
I think, specifically, a much better picture of how the 
smuggling networks work throughout Central America, South 
America, Mexico and then, ultimately, in the United States and, 
in some cases, through the United States to Canada, depending 
upon the nationality of the individual and the activity.
    We have been able to take those foreign assets, both the 
TCIUs and our attache networks overseas, develop that into 
reporting with our CBP counterparts, who also have assets 
deployed to Central America, South America, and Coast Guard, 
and under the Secretary's Joint Task Force structure and Unity 
of Effort have also built a human smuggling cell here in the 
United States that is focused specifically on that, collects 
that data, and helps us organize our activity and monitor what 
we call the indicators on a weekly basis to see if we can 
identify increases in illicit financial flows that relate to 
the smuggling of those networks into and out of the United 
States.
    But those relationships, either strictly through the 
attaches or more enhanced relationships through the TCIUs, 
allow us to engage the foreign government to share information 
much more quickly and to address the threat and then 
operationalize that activity to reduce the crime in those 
countries, which is beneficial to both.
    So it is very much a shared activity in our TCIU activity. 
There are threats that both countries feel are important to 
those activities. Now what we are doing is trying to link those 
TCIUs to increase collaboration and capacity between the 
countries themselves.
    As I mentioned in my opening statement, we just 
participated in a training class where we had 12 Guatemalans 
and 12 Panamanians with U.S. officers, and that built 
camaraderie between the two units and exchange of best 
practices between them beyond what we were teaching them at 
FLETC in our training class.
    Mrs. Miller. Very good.
    In addition to this, I mean, just having those kind of 
relationships, there is no second for human intel.
    Mr. Kubiak. Absolutely.
    Mrs. Miller. No second. That is the kind of information I 
am sure we are getting from those forces as well. So thank you 
for that.
    The Chairman recognizes Mr. Vela.
    Mr. Vela. Mr. Wagner, I have one question regarding liquid 
meth. I understand that, over the past several years, we have 
seen an increase in the shipment of liquid meth. I am just 
curious if those shipments pose any special physical threat or 
health risk to our agents in the field.
    Mr. Wagner. Yes. It is correct. I mean, we have seen a 
pretty strong increase in methamphetamine seizures. Most of it 
is in the powder form, but we are seeing a lot of liquid 
methamphetamine. We are seeing it secreted in gas tanks, in 
other containers. There are risks inherent in handling that, 
seizing it, removing it from the vehicle, storing it, 
destroying it.
    You know, we do put out the proper precautions and the 
training and the equipment to be able to handle it. But the 
storage of it can be a challenge, especially in liquid form, 
and how we transport it and account for it and measure it. But 
it is something we are also taking a look at to make sure we do 
have the best and safest procedures for handling it.
    Mr. Vela. What can we do from the standpoint of providing 
the appropriate technologies to make it easier for the folks in 
the field to do the job? I mean, do you feel like you have got 
what you need or are there other things that we can do?
    Mr. Wagner. It is challenging detecting the liquid 
methamphetamine. It is challenging to find a technology that 
will help us do that. A lot of our non-intrusive inspection 
technology helps us find those false compartments and those 
parts of the vehicles that are not factory made.
    Our recapitalization plan is something we are seeking 
support for to refresh that technology. A lot of it is nearing 
the end of its life cycle. It needs to be replaced. A lot of it 
was built specially for us over time, and we helped develop and 
really build this industry up with what we have been able to 
do.
    So we are looking for support for the budget request that 
does include the start of the refresh of a lot of that 
technology. That is probably the most important thing for us.
    Mr. Vela. I think, Mr. Bersin and Mr. Kubiak, you can 
probably address this next question.
    Mr. Bersin, you and I have dealt with this issue in 
Tamaulipas for a while now, and, obviously, things are only 
getting worse. I am wondering if you can give us an idea of 
what is occurring on the diplomatic front in terms of getting 
Mexico City to address this situation.
    At the same time, I know what kind of coordination we have 
between our State Department, our Department of Justice, and 
our his and DEA employees on the field. I would like to get 
some sense if either you or Mr. Kubiak feel like there is 
anything else we can do from the standpoint of providing 
further support for those agents that are living in places like 
this.
    Mr. Bersin. As you know, the relationship between Mexico 
and the United States at the level of law enforcement as well 
as at the diplomatic level is unprecedented. I can tell you, 
having lived and worked on the border for 20 years, that the 
way in which we engage with Mexico today is simply dramatically 
different from what it was 5 and certainly 10 years ago.
    So, for example, the relationship that we have with Mexico 
in response to the unaccompanied minor and the family migration 
from Central America--we have seen a dramatic decline in the 
number of people trying to cross, in part, because of 
activities undertaken by the United States in the sending 
countries, but we should not ignore the extent to which 
activities by Mexico and Mexican migration authorities and law 
enforcement in their Southern Border has really contributed to 
a decrease in the number of people trying to cross into our 
country and Texas from Texas to California.
    With regard to the violence in Tamaulipas--and you know I 
have visited with you both in Brownsville as well as in 
Matamoros--what we are seeing is the latest result of what has 
been going on in Mexico since 2006, when the Mexican government 
and the Mexican people made a decision to take on organized 
crime. We have seen 100,000--or just under 100,000 deaths since 
that time.
    But, in fact, we have seen significant cooperation and the 
significant growth in Mexican capacity to confront organized 
crime. When we began with Merida in 2006 in the Bush 
administration and then continued in the Obama administration, 
Mexico was facing what was seen by many observers, Mexican and 
U.S., as a National security threat. In fact, if you go back to 
2006, you maybe remember Barry McCaffrey, the former drug czar, 
worrying that Mexico was on the verge of becoming a failed 
state, which turned out to be wrong and certainly, in 
retrospect, is not the case.
    But there has been a dramatic change in the nature of the 
organized crime problem in Mexico from that of massive cartels 
led by a series of kingpin figures like Chapo Guzman, but we 
have gone from four or five large cartels to a polarization of 
those organizations and the growth of many smaller organized 
criminal gangs on a local level.
    That has been good news from the standpoint of turning the 
National security problem into a law enforcement problem. The 
bad side is that it has also led to the kind of violence that 
we have seen in Tamaulipas now and in Reynosa, in Coahuila. 
But, Congressman, it is not of great solace to anyone when you 
are in the middle of a storm to say that, ``Well, we will 
survive this storm.''
    But we have seen the same pattern of violence in every 
large major city, starting in Tijuana 5 or 6 years ago, moving 
over to Arizona, Sonora, moving over to Juarez, which we will 
all recall even 3 years ago was the most violent city in the 
western hemisphere and now has seen that violence subsiding. 
Now we are seeing in Mexico's northeast this kind of horrible 
violence that you describe and that we need to confront.
    But the relationships that we have put us in a better 
position to help Mexico confront that since, after all, it is a 
Mexican responsibility and they will confront, as they have 
confronted, violence elsewhere in their country.
    But the point I think is that we will see this violence 
contained. We are beginning to see the reaction of Mexican law 
enforcement and the Mexican military and SEMAR to confront this 
violence, and I trust that has been the case in Juarez and 
Tijuana and that, in fact, the violence of Matamoros will 
subside.
    With regard to force protection of our people, as you 
properly point out, there is great attention being given to 
that by the State Department as well as the Department of 
Homeland Security to protect U.S. officials serving in the 
consular offices and generally in Mexican diplomatic posts. I 
am confident that we are taking that threat indeed very 
seriously. Thank you.
    Mr. Vela. I am out of time. Thank you.
    Mrs. Miller. We can come back for a second round.
    The gentleman from Texas, Mr. Smith.
    Mr. Smith. Thank you, Madam Chairman.
    Mr. Kubiak, let me address my first question to you. That 
is to ask you, if you would, to go into more detail about how 
you intend to expand the visa security program, in other words, 
what new offices will be involved, how many, what criteria you 
will use, and what other things you are taking to better vet 
individuals who apply for visas. But start with the details 
about how you intend to expand the program first.
    Mr. Kubiak. Thank you, sir.
    So with additional funding that Congress provided us this 
fiscal year, we have been able to identify additional VSP 
posts, where we will initiate VSP operations in four locations 
before the end of the fiscal year.
    That funding is 2-year funding, thankfully, to Congress' 
allocation because it is difficult for us to operationalize 
more offices than that, given the amount of time that we had 
left.
    Mr. Smith. Where are those four locations?
    Mr. Kubiak. Sir, we don't publicly announce the locations 
of these security units, but I would be happy to provide that 
information in a Classified or Law Enforcement-Sensitive forum, 
if you would like.
    Mr. Smith. Okay. That is fine.
    Then what other steps and areas are in those locations--
other than those four, what other steps are you taking to 
better vet individuals?
    Mr. Kubiak. So there was a major transition to the vetting 
of our process since the last GAO audit in that our vetting 
process was changed in two major ways. First of all, it was 
centralized.
    So we do a centralized vetting now of all visa applications 
for those 21 posts where we were active. We do that even 
equally significantly prior to the State Department's decision 
on a visa application process.
    So, in the past, it was done subsequent to that event. Now 
we have moved that to the front end so that the visa security 
officers, consular officers, overseas benefit from that 
centralized review and can focus on the most specific threats, 
those with derogatory information.
    We do two things with that derogatory information. One, we 
are able to either determine that the derogatory information 
does not apply to the applicant that is applying for 
application to the United States or, second, we are able to 
further confirm and even spread that out and then utilize our 
opportunity overseas to interview those individuals to make 
greatest assets.
    Mr. Smith. Thank you. That is helpful.
    Ms. Gambler, let me ask you my next question, which is--you 
are going have a number of individuals who are either wrongly 
given a visa or who are given a visa and then it is 
subsequently determined that they are a security risk, new 
information comes to light, and they should not remain in the 
United States.
    First of all, how many people are we talking about in that 
category?
    Ms. Gambler. So you are talking about individuals who maybe 
have either overstayed their visa or have some other issue that 
would mean that we would no longer want them to be in the 
United States?
    Mr. Smith. Right. Individuals who for good reasons you no 
longer want to remain in the United States.
    Ms. Gambler. We don't have good data on that, sir. We have 
done a body of work on overstays and can certainly follow up 
and try to give you specific numbers for the record.
    Mr. Smith. I am talking about those who you determine are a 
security risk. Surely you know that number. Right?
    Ms. Gambler. When we last looked at the overstay issue, we 
found that ICE had--or CBP and DHS had identified several 
thousands of individuals who they needed to look at for some 
additional risk.
    I think, of those that they looked at, there was a small 
number who were sort of identified for additional investigation 
because of National security or public safety risks. I think it 
was maybe within the hundreds. We can certainly give you the 
specifics for the record.
    Mr. Smith. That is close enough. Of those hundreds of 
individuals who you now think are security risks, how many has 
the administration moved to actually deport?
    Ms. Gambler. We, again, can get you those specific numbers 
for the record.
    But some were found to have already departed the country 
and some were referred out to field offices for additional 
investigation.
    Mr. Smith. Again, if you just want to give me a percentage, 
it is fine. What percent has the administration moved to 
actually send home, to deport, who have been deemed to be 
security risks?
    Ms. Gambler. Through our work, Congressman, I am not sure 
that we were able to identify that through our work. But we can 
certainly follow up.
    Mr. Smith. We have three administration officials here. Do 
any of you all know the answer to the question, how many 
individuals the administration has sought to deport who were 
considered security risks after the fact? I mean, we are 
talking about the safety of the American people. Has the 
administration been seeking to deport any of these individuals? 
Does anybody know?
    Mr. Bersin. Congressman, I don't have a specific figure, 
but I do know that if a high-risk person is identified as 
constituting a threat, that person is not ignored. I can't tell 
you any, because I am not aware of any specific case, but I can 
tell you that it is not a question of knowing there are X 
number of people who have been identified as security risks who 
are not being looked at by his.
    Mr. Smith. Is the administration moving to deport these 
individuals or not?
    Mr. Bersin. As a matter of policy, they would. If someone 
is identified as a high-risk security threat, they would be 
investigated and not permitted to stay in the country. Yes, 
sir.
    Mr. Smith. All right. Thank you.
    Thank you, Madam Chair.
    Mrs. Miller. Mrs. Torres of California.
    Mrs. Torres. Thank you so much.
    I have a few questions for Deputy Assistant Commissioner 
Wagner. Because of limited time, I am going to ask all of them 
at once, so you might want to take a note or two.
    I would like for you to comment on the testimony that was 
just given by Ms. Gambler, and I am going to quote a little bit 
from the report that I have in front of me and from her 
statement, that one-fifth of the existing CSI ports were at 
lower-risk locations; and also that CBP had not regularly 
assessed foreign ports for risks to cargo under CSI since 2005, 
and that when you did in 2009, they found that you did not use 
the results from this assessment to make modifications to the 
locations where CSI staff was posted because of budget cuts.
    So I heard a little bit about a budget increase in a 
testimony earlier, but yet the testimony was that due to budget 
cuts we are not able to be more effective where we need to be.
    My two questions, my other two questions for you, I 
represent the 35th District in California. We are a logistics 
center district. Our economy is very much dependent on the Port 
of Los Angeles, the Port of Long Beach. UPS has a major 
footprint in the district and FedEx has a smaller footprint. 
The Ontario International Airport is also housed in my 
district.
    My question to you is: By expanding our borders, is that 
taking resources away from our inland ports that we have here 
in the United States? What steps are being taken to ensure that 
pushing out our borders and assigning Customs and Border 
Protection officers abroad does not undermine the security at 
ports such as the Ontario International Airport?
    On record, I would like to have an opportunity for a 
dialogue with your office about issues that I have identified 
at Ontario Airport.
    Mr. Wagner. Sure. Thank you for the question.
    So in response to CSI, we are currently operational at 60 
ports in 32 countries. This covers about 80 percent of the 
total maritime container traffic that is destined to the United 
States. We do analyze the risk of the ports. We do look at 
where people are deployed. We do look is that meaningful work. 
We look for a broad coverage of application of where our 
resources are best used. We also want to look for competent 
foreign partners that are willing to have us and cooperate with 
us in their seaports and allow us to identify containers that 
we ask them then to inspect for us. So it is a little bit of a 
risk assessment and also who we have the cooperation with and 
who is willing to allow us to operate there. But we are happy 
to follow up with more detail on CSI.
    Mr. Wagner. As far as Ontario Airport, when we expanded to 
Abu Dhabi Airport, it was a new model for preclearance, and we 
currently receive reimbursement for all of our expenses to 
deploy to that location. We can currently accept reimbursement 
for up to about 85 percent of our total costs. So as we expand 
preclearance, that will be the model we will be pursuing for 
the maximum allowable reimbursement.
    So we don't see the necessary, the diversion of resources 
from the United States overseas, but really it is plussing up 
our overall resource picture, which, as you know, we do have 
staffing constraints. This really helps us plus them up because 
we are being reimbursed for that work.
    Now, it does free up other advantages for the airlines, 
that they can make different choices about where to land, what 
parts of the airport to use, and it allows some different 
flexibilities or options into their business models by having 
flights precleared overseas. But there is no significant 
diversion of resources to staff up foreign pre-clearance 
locations now, and it is actually the contrary in that we will 
be plussing-up our resources.
    Mrs. Torres. So are we picking winners and losers when we 
choose these countries simply because they can afford to pay 85 
percent of your budget?
    Mr. Wagner. It was a balance of how we measured it, looking 
at the security aspects, looking at the partnerships we have 
there. Are they willing to reimburse us is certainly one of the 
considerations. But is there enough traffic there to justify it 
and does it have a competitive balance between the different 
U.S. carriers that service those locations. So that is part of 
the factors, but it is certainly not the overriding or 
principal factor we would use.
    Mrs. Miller. Mr. Barletta of Pennsylvania.
    Mr. Barletta. Thank you, Madam Chair.
    The primary objective of the Immigration Advisory and Joint 
Security Programs are to stop potential terrorists and other 
high-risk passengers from boarding aircrafts and entering the 
United States. But under these programs, the no-board 
recommendations made by CBP Officers are only voluntary.
    Mr. Wagner, can you speak to the frequency with which CBP's 
recommendations under these programs are followed? In light of 
the growing threat of the Islamic State, are there any plans to 
make these recommendations have more force or to otherwise 
implement additional measures to prevent foreign fighters from 
boarding planes to the United States?
    Mr. Wagner. Thank you.
    You are correct, these are recommendations we make in 
partnership with the air carriers. Almost always do they accept 
our recommendations. Very, very rarely, there has been one or 
two isolated incidents that I can recall where they have not 
followed our recommendations. We are there on arrangements with 
the host countries in the Immigration Advisory Program. We are 
there on the basis that we are advising the airlines about the 
security documents and the security of travelers. We are there 
to liaise with the foreign authorities. But we are not there 
under negotiated authorities, like we would in preclearance.
    A much different set of complications and issues to be 
there with authorities. That is where pre-clearance really 
comes into play. It is a lot bigger considerations to allow us 
to have those authorities on foreign soil than more in an 
advisory capability.
    We have very strong relationships with the carriers. They 
welcome our presence at these locations and they work very 
closely with us, with their security contacts, and with the 
foreign authorities. So we don't really see a need at this 
point to have the authority to compel them not to board 
someone, and I think they have recognized our value and 
realized it is in their best interest to accept those 
recommendations.
    Mr. Barletta. Sure. We know that those wishing to do us 
harm have manipulated our immigration systems in the past to 
enter and remain in the United States. Indeed the 9/11 
Commission noted that for terrorists travel documents are as 
important as weapons. Mahmud Abouhalima, a convicted 
perpetrator of the 1993 World Trade Center bombing, received 
amnesty in 1986 after he claimed to be an agricultural worker, 
despite being a cab driver. The only thing he planted in 
America was a bomb.
    How would you rank the effectiveness, Mr. Wagner, of the 
programs discussed here today at preventing another Mahmud 
Abouhalima from obtaining or using travel documents to carry 
out an attack against the United States? Are there some that 
you think do a better job at meeting this goal? How would you 
improve those that are less than effective?
    Mr. Wagner. Well, sir, I happened to be there at the World 
Trade Center that day in 1993. That is where I started my 
career with the Customs Service. So that is still very fresh, 
that experience.
    I think we have made a lot of great strides in our 
programs. We have a lot more work still to do. Pre-clearance 
offers us and the pre-clearance expansion offers us a lot of 
expanded capabilities in addressing that.
    But we have made a lot of good progress. Like Mr. Bersin 
mentioned in his opening statement, with the Christmas day 
bomber over Detroit, we were there waiting on the ground for 
Abdulmutallab to land. You know, it was we had capabilities in 
place, that we didn't quite fully exploit the systems we had in 
place. We had people in Amsterdam that could have intercepted 
him. We had our Regional Carrier Liaison Group that could have 
called to his original embarkation point to have a no-board 
recommendation.
    We really took that to heart and put a lot of these what we 
call predeparture programs into place and really with a focus 
on how do we best utilize the information that we have and how 
do we take action with that as early as possible to help secure 
the transportation system.
    So looking at the expanded partnerships, the expanded 
operations, the expansion of preclearance, and the use of our 
technology and our systems, we are in a much better place 
today, but we still have a lot of work to do.
    Mr. Barletta. Thank you.
    Thank you, Madam Chair.
    Mrs. Miller. Mr. Hurd of Texas.
    Mr. Hurd. Thank you, Madam Chair, for this opportunity to 
have this hearing. I think it is an important issue.
    To our panelists, thanks for your presence here today.
    My first set of questions I think are for you, Mr. Kubiak, 
about the PATRIOT Program. It is my understanding this is a 
program that helps screen and vet visa applicants and that it 
is only at posts overseas where they have an existing visa 
security program, is that correct?
    Mr. Kubiak. That is correct.
    Mr. Hurd. Is that 19 or 21?
    Mr. Kubiak. Twenty-one currently.
    Mr. Hurd. So why can that program not be exported to other 
places that don't have the VSP program?
    Mr. Kubiak. I appreciate the opportunity to really clarify 
that process and how the program has developed since 2003 when 
it was first initiated.
    The PATRIOT process was a technological advancement for us 
that took a while. When I first was involved in international 
affairs back in 2003 through 2006, when the program was being 
developed, we simply didn't have the technical capability to 
process and screen those applications the way we do today and 
the way we are doing today.
    As that process evolved after the GAO report in 2011, we 
did, in partnership with CBP, develop a system, the PATRIOT 
system, an ICE system, that allowed us to prescreen, 
automatically screen, and get that information from our partner 
agencies, like the Department of State, and then to run that 
automatically, in many cases, the screening capability against 
that activity.
    Mr. Hurd. So I was in the CIA for 9 years. I was 
undercover. At one of my posts I was the consular officer, so I 
stamped visas by day and did my real job at night. So we can 
have just a hearing on just this topic. But my question is: So 
when that person comes up to the window, and I am not a VSP 
consulate, their name is not being ran against the PATRIOT 
database? Is the information in the PATRIOT database different 
than what is in TIDE or the TSTC database?
    Mr. Kubiak. So those databases work together to screen the 
applicants in the applicant process. But you are correct, we 
are not currently, we don't currently have the capability to 
screen the world, if you will, all the applications around the 
world that are submitted, and we are screening and vetting 
those applications at the 21 locations that we are.
    We are working currently, now that we have the PATRIOT 
capability and the ability to do that, to assess, No. 1, how we 
would turn that capability on and where it would make sense to 
do so remotely without additional personnel. I don't think that 
we will likely ever be in a situation to be at all 225 visa-
issuing posts physically. So those that are lower threat and--
--
    Mr. Hurd. So what are the limitations of this? This should 
be an automated process where you take whatever identifying 
information that you are collecting through the visa 
application and it should be run against every single one of 
the databases that are in our systems. That is the purpose of 
TIDE. I would also welcome your response to that.
    But, Ms. Gambler, I would welcome and appreciate your 
perspective on this too if you have one as well. But, Mr. 
Kubiak, over to you.
    Mr. Kubiak. Sure. That capability is automated now. That is 
just as of----
    Mr. Hurd. In 21 locations.
    Mr. Kubiak. In 21 locations.
    Mr. Hurd. Why not 220?
    Mr. Kubiak. Well, that is what we are working on doing now, 
sir, is we are attempting to assess whether the capability and 
what the viability is of that. It is not as simple as flipping 
the switch and being able to do that, it is additional. It is 
not a completely automated process. There is a human factor 
associated with screening the information that the automated 
system puts out, being able then to deliver that to someone at 
post who can then operationalize that activity and being able 
to do the additional.
    Mr. Hurd. Do we have a time line?
    Mr. Kubiak. Sir, I don't currently have a time line, no. 
That process is in development at this point.
    Mr. Hurd. Thank you, Mr. Kubiak.
    Mr. Kubiak. Sure.
    Mr. Hurd. Ms. Gambler, do you have insights?
    Ms. Gambler. The thing that I would add, based on the work 
that GAO has done, and the last report was in 2011, so it kind 
of predated sort of the implementation of this program that we 
are now discussing, but at the time ICE had a plan for 
expanding the Visa Waiver Program, but we found there were some 
gaps in how they were addressing risks through that plan.
    So from our perspective it is important, and this is what 
we recommended, that ICE needed to assess ways to address these 
higher-risk posts that don't have a visa security program 
presence to be able to be better-positioned to address the 
risks in the process. So from our perspective it is important, 
as ICE considers plans going forward for the visa security 
program, that they take a risk-based approach to doing that.
    Mr. Hurd. Mr. Wagner, do you have anything to add?
    Mr. Wagner. Yes. Just that once the visa is issued we do do 
recurring vetting on the visa database. We do run the visa 
database through our targeting and analytical tools and then 
work with ICE and Department of State on any results that we do 
come out of that for potential revocation of that visa. Then, 
of course, when they travel and book their travel, we are also 
vetting that information again.
    Mr. Hurd. Thank you, Mr. Wagner.
    Madam Chair, I think this may be an area that the 
terrorists, the foreign fighter pipeline, the subcommittee 
should continue to look into.
    Mrs. Miller. I certainly agree. It looks like there is a 
gap there in the system. So we should pursue that. I appreciate 
the gentleman's questions.
    Ms. McSally of Arizona.
    Ms. McSally. Thank you, Madam Chair. Thanks to our panel 
today.
    I recently received two demonstrations related to 
deception-detection technology developed at the University of 
Arizona, which is in my district. I don't want to get too deep 
into the science behind it, but the two I want to talk about 
is, one of them is called Neuro-Screen, which identifies just 
embedded in on-line forms any sort of deception behavior, that 
can then further vet individuals, red, yellow, green, for 
further interviews and further vetting based on a suspicious 
score. The other one, called AVATAR, is like a computer 
interview detecting your pupils and your skin and your weight 
shifting, all that kind of stuff.
    So it looks like very interesting technology that could be 
used, both of them differently. I mean, the Neuro-Screen is 
much more easily deployable perhaps than AVATAR, but it could 
be used for the on-line form interviews for the Electronic 
System for Travel Authorization or for the in-person interviews 
or even at the ports of entry in order to detect what humans 
might not be able to detect. The professors told me that even 
our best, most trained interrogators, like my colleague here 
from Texas, oftentimes don't detect deception correctly in 
about 50 percent of the cases just human to human.
    So the question is: To what extent is the Department using 
any deception-detection technology or investigating the use of 
technology like this? The first part of that question.
    Mr. Bersin. I can respond to that, Congresswoman.
    The AVATAR technology at the University of Arizona, which 
was a Center of Excellence, a Border Center of Excellence, and 
I believe will continue, although not as the administrative 
head, will continue there, has been promoting and developing 
this technology. I, myself, have seen it both in my current 
role and as the commissioner of customs in 2010-2011.
    I know there have been significant discussions both at the 
science and technology end, as well as CBP's considering the 
use of it. I am not in a position to tell you why exactly it 
hasn't been deployed, but I can assure you that it has been 
investigated for potential application.
    Ms. McSally. Great. I have heard that as well, interested 
in further discussions on that. But the Neuro-Screen seems like 
it is much more easily deployable and at least can be used for 
on-line forms. So is there any use going on for deception-
detection technology in the on-line forms?
    Mr. Bersin. I am not familiar with that program.
    Ms. McSally. Okay. Great.
    If you are willing, I would like to organize a 
demonstration with relevant parties and even the committee, 
Madam Chair. It is pretty easy stuff to demonstrate, perhaps, 
for further deployment.
    Great. Thank you. That is all I have got. I yield back.
    Mrs. Miller. Very well. Yes, I think we would all be 
interested in that. I think you can utilize that. I have heard 
a little bit about that. I don't know much about it. But even 
for the ESTA, with the Visa Waiver and those kinds of things, 
so that really utilizing technology.
    Ms. McSally. Yes, exactly. Like I said, the Neuro-Screen 
really is just based on kind-of how people usually are acting 
when they are deceiving and the use of their mouth and just 
where they are hovering and how long they take. So it captures 
all that and then identifies, you know what, this person needs 
to be further looked into. So if somebody is just filling out 
an on-line application, that seems like pretty easily 
deployable technology that we could----
    Mrs. Miller. Very well. Very good.
    Ms. McSally. Thank you.
    Mrs. Miller. We do have time for a second round. The 
Ranking Member is recognized.
    Mr. Vela. Thank you, Chairman Miller.
    I jut wanted to follow up, Mr. Bersin, on your responses. 
The one thing that I have not seen, acknowledging the 
challenges that Mexico has in other parts of the country and 
acknowledging their successes in addressing some of these 
cartel figures, is I haven't seen the political will to do in 
Tamaulipas what we saw them do in Ciudad Juarez and in Tijuana, 
understanding that there are also logistical differences. I was 
wondering if you could comment on that.
    One other thing is in light of the killing of the 43 
students in Guerrero, President Pena Nieto announced the 
development of three secure economic zones in Chiapas, Oaxaca, 
and I think it was Guerrero, if I am not mistaken, right? I am 
just wondering why, if he can do that in the southern states, 
why not do it along our border?
    Mr. Bersin. Taking the last point, Congressman, first, I 
think you understand that the six Mexican states contiguous to 
our 4 U.S. States are among, in fact, the wealthiest states in 
the United States of Mexico. In a huge powerhouse economy those 
are the six states, from Tamaulipas to Baja California, that 
actually are not in the same condition as the Mexican southern 
states, which have been designated as the special economic 
zones because they actually are very unindustrialized, remain 
primarily rural. I think that was the intent. So it is a bit of 
apples and oranges with regard to the reasons why the north of 
Mexico has not been designated while the south, southern states 
you mentioned have been.
    With respect to the continuing violence, I can assure you 
that diplomatically both the State Department and DHS are in 
regular contact both at post with Ambassador Wayne and his 
staff and our attaches with authorities that raise the issues 
of violence in Tamaulipas, both because of the threat to 
Mexican public order, but also to the threat that is presented, 
as you pointed out, to the U.S. representatives working there.
    I believe that you are seeing the kind of application of 
force that produced the results elsewhere in terms of the 
assignment of SEMAR, the doubling down on the Federal police 
commitment to Tamaulipas and Coahuila. Over time, as I said, 
although no assurance and no comfort to those living through 
what your neighbors in Matamoros are living through, I believe 
in time it will have the same results that we have seen in 
Juarez and Tijuana.
    Mr. Vela. Well, we will save the debate on that first point 
for later. But thank you.
    Mrs. Miller. Mrs. Torres, do you have additional questions? 
Excuse me, I am sorry, excuse me. Mr. Hurd of Texas.
    Mr. Hurd. Thank you.
    Mr. Wagner and Ms. Gambler, this question may be for you. I 
represent 820 miles of the border with Mexico, and the amount 
of goods and services that are coming across the border is 
increasing, it is going to continue to increase, and I think 
one of the programs that I think is helpful.
    Increased traffic means more work for you all folks to do, 
more things to weed through to find the bad guys, which is I 
know a difficult proposition. But I am just interested to hear 
about the C-TPAT program and how it is working in Mexico or the 
steps to implement it in Mexico, and are there any efforts to 
do pre-clearance in Mexico as well.
    Mr. Wagner. So you are absolutely right. I mean, increasing 
workload makes increasing challenging to find the things we are 
looking for. But that is where we look for programs like our 
Trusted Traveler, Trusted Trader programs, C-TPAT, leveraging 
the resources of the industry to help secure their own supply 
chains. They have vested interests in doing that as well.
    So we work closely with them to help each other. When we 
can certify that their supply chains are secure, they can 
package it together with a secure trucking company. We can 
designate a special lane for them to use under the FAST program 
for them to cross the border. We expend less resources on 
checking them because they have taken those extra measures that 
we have validated and we can focus on everyone else.
    Same thing with the passenger programs, the travelers that 
signed up for our Trusted Traveler programs get vetted, get 
interviewed, get fingerprinted. We spend less time on them when 
they are crossing and we can focus on other people.
    Mr. Hurd. Are you having any difficulties implementing 
that? Are there any barriers that you are finding in the 
Mexican bureaucracy to do these kind of programs?
    Mr. Wagner. No, not necessarily. We have very good 
cooperation with the Mexican authorities. They are very willing 
partners. We exchange a lot of information with them. We have 
our officers deployed at their airport in Mexico City working 
closely with them under the Immigration Advisory Program. We 
exchange a lot of information with them. We do have willing 
partners there.
    Mr. Hurd. Good copy.
    Ms. Gambler, any comment.
    Ms. Gambler. GAO has issued a report on CBP's Trusted 
Traveler programs, to include the FAST program, which Mr. 
Wagner noted. What we found through the program was for 
commercial vehicles, for example, that are in the FAST program, 
which relies on C-TPAT, that those participants in the FAST 
program did experience benefits relative to shippers or 
vehicles who are not part of the FAST programs, including 
having shorter wait times at ports of entry. We also found that 
trusted travelers committed fewer violations than did non-
trusted travelers.
    That being said, we did find some challenges with the 
program, but it was as it related to the enrollment of 
individuals into CBP's Trusted Traveler programs, including 
sort of how long it is taking to get through the vetting and 
the enrollment processes for certain trusted travelers and at 
certain enrollment centers. We made recommendations to CBP to 
try to improve the efficiency and effectiveness of the 
enrollment process.
    Mr. Hurd. Great. Thank you.
    Look, I think we can secure our border and facilitate the 
movement of goods and services at the same time, and those 
should always be our twin goals. So thank you all for your time 
today.
    Mrs. Miller. Mrs. Torres, did you have an additional 
question?
    Mrs. Torres. I do. Thank you, Mrs. Miller.
    Assistant Secretary Bersin, can you give us an update on 
the progress made so far on the Department's international 
engagement strategy, where we are on that?
    Mr. Bersin. Yes, ma'am. We have, as the GAO had noted, have 
developed an international engagement strategy that is now 
actually in final review for presentation to the Deputy 
Secretary and the Secretary that looks at the priorities as 
discussed by my colleagues here this morning and myself, but 
also does it in a regional context. And we expect that that 
policy will be able to be reviewed by you and delivered to you 
within the foreseeable future, meaning, I hope, before July 4.
    Mrs. Torres. I was going to push you on a date. So thank 
you for that. That was my question. Thank you.
    Mrs. Miller. Ms. McSally of Arizona.
    Ms. McSally. Thank you, Madam Chair.
    Just one follow-up question. I have heard a lot from my 
constituents about concerns related to refugee vetting, 
specifically those that would be coming into the country from 
Syria, Iraq, and concerns about we have had a couple incidents 
with those that were Iraqi refugees and databases not catching 
up to each other before they got here. So could you walk 
through any issues or concerns you have related to the vetting 
of those coming in as refugees specifically from that region?
    Mr. Bersin. So, Congresswoman, the databases that we have 
that are knit together, that permit a federated search, are 
actually, as Mr. Wagner indicated, better than we have had. 
They are constantly getting better as you can actually search 
in a federated fashion through all of the holdings of the 
United States Government in all respects.
    There have been concerns and we are aware of the concerns 
with regard to the refugee status and the status of people 
applying for refugee entry into the United States. I can assure 
you that attention is being paid to that. The danger is that we 
do not have a record of someone who may or may not have been or 
may have been radicalized while in a Syrian refugee camp, for 
example. That is the concern. It is not that, if we have the 
biometrics or we have some derogatory information from 
battlefield findings, that we won't catch the person when 
vetted. It is to be sure that, in fact, we are certain that we 
are not dealing with a radicalized individual or group of 
individuals. That is the risk that we are concerned about.
    Ms. McSally. Right. I get that. You can't, obviously, 
measure intent if there is no other activity. So are you saying 
all databases, to include information from the DOD, that is all 
synched up before someone, especially from----
    Mr. Bersin. I can go in, in a different setting, go into 
the detail in which we have all of the holdings available and 
which ones are--let me stop there and just offer you a briefing 
on that.
    Ms. McSally. That is okay. But it is safe to say that it is 
not going to be perfect, obviously, and concerns do remain that 
we are potentially missing people? I don't want to put words in 
your mouth.
    Mr. Bersin. There is always that threat. The threat is that 
you are dealing with someone who is a so-called clean skin. But 
the Citizenship and Immigration Services refugee officers 
actually are quite experienced and the people that are looking 
at this series of potential refugees are among our most 
experienced. So that there is the face-to-face interview that 
is, obviously, critical in this context.
    Ms. McSally. Okay. Great. Thank you.
    Thank you, Madam Chairman. I yield back my time.
    Mrs. Miller. I thank the gentlelady. I appreciate that 
question. Actually Chairman McCaul and myself and a couple of 
other Members, I think, sent a letter to the Secretary about 
that very issue. I was just asking my staff here have we 
received a response to it yet. So I will make sure you get all 
of that. Very good question.
    I certainly want to thank the witnesses for all their 
valuable testimony and for their participation here today. It 
has been an excellent hearing, very engaged, obviously, from 
our Members and the witnesses as well. For any Members of the 
committee that would have some additional questions, we would 
ask you to respond to these in writing. Therefore, pursuant to 
Committee Rule VII(e), the hearing record would be held open 
for 10 days.
    Again, we thank you for your participation here today. We 
certainly thank all of you for your service to the country as 
well.
    With that, the committee stands adjourned.
    [Whereupon, at 11:34 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

        Question From Honorable Brian Higgins for Alan D. Bersin
    Question. The announced US-Canada pre-clearance agreement 
pertaining to the air, land, rail, and marine modes of transportation 
will enable CBP to screen individuals and goods before they reach the 
United States, enhancing legitimate trade and travel and increasing 
efficiency. At the same time, a pre-Inspection pilot for commercial 
cargo in which CBP Officers performed primary inspections on U.S.-bound 
trucks in Ft. Erie recently concluded and was deemed a success.
    Would the pre-clearance agreement provide the authorities needed to 
make pre-inspection permanent at the Peace Bridge? If not, what would 
be required?
    Answer. Secretary of Homeland Security Johnson and Public Safety 
Canada Minister Blaney signed the U.S.-Canada Land, Rail, Marine, and 
Air Pre-clearance Agreement on March 16, 2015. This Agreement delivers 
on a key commitment in President Obama and Prime Minister Harper's 2011 
U.S.-Canada Beyond the Border Declaration and Action Plan and includes 
provisions recognizing the operational and security realities of 
conducting customs, agriculture, and immigration inspection activities 
on foreign soil in a post-9/11 environment. In addition to updating the 
existing U.S.-Canada Air Pre-clearance Agreement, the new Agreement, 
for the first time, covers pre-clearance in other modes of 
transportation. By its terms the Pre-clearance Agreement covers the 
examination and inspection of people and goods in the host country to 
ensure that their entry and admission into the territory of the 
inspecting party conform to its customs, immigration, agriculture, 
public health, and safety requirements. The Agreement also covers 
certain passenger pre-inspection programs but does not cover cargo pre-
inspection programs, such as those covered by the pilot program, where 
CBP Officers conduct primary inspection of commercial truck cargo in 
Canada with any secondary inspection performed in the United States.
    DHS and CBP are evaluating options, including the possibility of 
making this program permanent. If such an option is pursued, DHS and 
Public Safety Canada would need to negotiate a new agreement or 
arrangement that outlines the purpose, scope, and authorities for the 
initiative.

                                 [all]
</pre></body></html>
